APPENDIX

1a
APPENDIX A
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________
No. 17-13265; 17-13330
_________
D.C. Docket No. 1:16-cr-20908-JAL-2
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
RENADO SMITH,
RICHARD DELANCY,
Defendants-Appellants.
_________
Appeal from the United States District Court
for the Southern District of Florida
_________
(July 2, 2019)
_________
Before ROSENBAUM, HULL and JULIE CARNES,
Circuit Judges.
HULL, Circuit Judge:
After a jury trial, defendants Renado Smith and
Richard Delancy appeal their convictions for
conspiracy to commit alien smuggling, alien
smuggling, and attempted illegal reentry. Both
defendants argue that at trial the district court erred

2a
in admitting the videotaped deposition testimony of
passenger Vanessa Armstrong Vixama, a smuggled
alien in their boat. Smith also argues that the
prosecutor’s improper comments to the jury during
closing argument warrant a new trial. After careful
review of the record and the parties’ briefs, and with
the benefit of oral argument, we affirm Smith and
Delancy’s convictions.
I. TRIAL EVIDENCE
We recount the overwhelming trial evidence of
alien smuggling in this case.
For starters, on November 4, 2016, defendants
Smith and Delancy, both Bahamian nationals, set
out from Freeport, Bahamas on a 24-foot Grady
White boat with 21 passengers. Smith was the
operator of the vessel, and Delancy assisted him.
Of the 21 passengers on the boat, 20 were Haitian
nationals, including Vixama, and one was a
Bahamian national. Sometime after leaving
Freeport, this small boat ran out of fuel and drifted
at sea for approximately six days. There was little
water and no food on the boat.
Fortunately for the passengers, on November 9,
2016, a U.S. Customs and Border Protection (“CBP”)
aircraft, conducting a routine border security patrol,
spotted the boat drifting about 24 miles off the coast
of Key Largo, Florida. The boat was also about 24
miles to the southwest of Bimini, Bahamas and was
drifting in a northerly direction with the Gulf Stream
current. The CBP aircraft personnel notified the U.S.
Coast Guard of the boat’s position and continued to

3a
monitor the boat from the air until a Coast Guard
vessel arrived.
A Coast Guard cutter was dispatched to the boat’s
location and used a small boat to ferry passengers
from the disabled boat to the cutter. The passengers,
who were tired and dehydrated but otherwise in good
health, were eager to leave the disabled boat. Smith
and Delancy, however, asked Coast Guard personnel
to supply the two of them with water and fuel to
continue their trip. A Coast Guard officer advised
them that the Coast Guard could not provide them
with fuel, and Smith and Delancy agreed to board
the cutter.
At the time, Smith and Delancy claimed that they
were taking the passengers to Bimini, Bahamas.
Coast Guard officers testified, however, that they
were skeptical of the defendants’ claims because they
“didn’t make sense.” The officers explained that the
boat was found south of Bimini, approximately
halfway between Bimini and Key Largo. Because the
current in that area generally travels north, it would
not make sense for the boat to have drifted south
past Bimini after becoming disabled. Both officers
acknowledged, however, that because the boat had
been adrift for six days, it would be difficult to
determine what the boat’s original route had been.
The CBP aircraft pilot who located the boat
testified that, in his experience, vessels traveling
from the Bahamas to the United States do not
always take a straight route and sometimes take
evasive actions to “disguise exactly what they’re
doing.” Similarly, Homeland Security Investigations
(“HSI”) Agent Craig Nowicki, the case agent,

4a
testified that people involved in smuggling aliens
“find various routes to avoid law enforcement
detection.”
The Coast Guard processed all 23 people who were
taken off the boat (including Smith and Delancy).
None of the 21 passengers had any identification
documents with them, nor did they have permission
to enter or reside in the United States. Smith and
Delancy both were previously removed from the
United States and did not have permission to
reenter.
In addition to the location of the boat, there was
other considerable evidence showing that the
defendants were bringing the aliens to the United
States, not Bimini. For example, this was not even
the defendants’ first attempt to illegally enter the
United States. Smith had a prior June 2013
conviction for alien smuggling for profit, and Delancy
had a prior November 2013 conviction for illegal
reentry after deportation. As discussed later, the
first page of each judgment of conviction was
admitted into evidence at trial. Among other things,
those judgments reflected: (1) that both defendants’
prior convictions took place in the West Palm Beach
Division of the Southern District of Florida; (2) the
dates of each defendant’s prior offense and
conviction; (3) the statute under which each
defendant was convicted; and (4) the nature of the
offense.
Two of the boat’s passengers
believed the boat was headed to
Specifically, two passengers
depositions that were played

also testified they
the United States.
gave videotaped
for the jury and

5a
admitted into evidence at trial. As discussed in
greater detail below, the defendants did not object to
the admission of one passenger’s deposition (that of
Davidson Francois), but did object to the other (that
of Vanessa Armstrong Vixama). We review what
Francois said first.
Passenger Davidson Francois testified that he is
from Cap-Haitien, Haiti. In 2016, Francois left Haiti
and traveled to Freeport, Bahamas. After arriving in
Freeport, Francois’s father told him that a trip was
being planned to bring Francois to the United States
so that Francois could go to school. A few months
later, in November 2016, Francois boarded the
defendants’ boat and left Freeport with about 21
other passengers. Francois testified that it was night
time when he boarded the boat and that Smith drove
while Delancy “help[ed] out.” After leaving Freeport,
the boat got lost and spent six days at sea.
Francois expressly testified that other passengers
on the boat said they were headed to the United
States, and Francois likewise believed the boat was
going to the United States. Francois admitted,
however, that he did not personally know where the
boat was heading when he left Freeport because the
defendants “didn’t tell [the passengers] anything.”
Notably though, Delancy did discourage the
passengers from waving at other boats or using their
cell phones.
Specifically, during those six days, Francois saw
several other boats pass by. One boat stopped and
provided them with bread and water, but no other
boats came to their aid. But when the passengers
attempted to get the attention of the other boats that

6a
were passing, Delancy told them not to wave at the
other boats or attract their attention “because we
don’t know what kind of boats they are.” Delancy
also told the passengers to turn their cell phones off
during the trip and that he did not want them using
their phones for any reason. Some of the passengers
did attempt to use their phones but were unable to
get a signal at sea.
While Francois’s testimony was admitted without
objection, the defendants objected to the government
using the videotaped deposition of passenger
Vanessa Armstrong Vixama, who also was from
Haiti. Vixama’s testimony was strikingly similar to
Francois’s. Vixama traveled to Freeport, Bahamas
from Haiti in April 2016. Her plan was to travel then
from the Bahamas to the United States illegally, as
she previously had applied for and been denied
student visas to the United States on three separate
occasions. A friend of Vixama’s mother arranged the
trip for Vixama, and Vixama’s family paid $5,000 for
her passage.
Late one night in November 2016, Vixama got on a
boat in Freeport with 20 to 22 other people to come
to the United States. Vixama testified that she
believed she was going directly from Freeport to
Miami, and one of the defendants told her it would
be about a three-hour trip. Smith drove the boat
while Delancy held a GPS device and talked to
Smith.
After leaving Freeport, the boat got lost and ran
out of gas. When a fishing boat passed by, the
passengers pooled their money to buy gas so they
could continue their trip. There was no food on the

7a
boat, and they ran out of water after the first day at
sea.
Vixama and other passengers had cell phones with
them on the boat and attempted to use them while
the boat was lost, but could not get any signal. When
Delancy noticed the lights from their phones, he told
the passengers to turn their phones off when other
boats were going by. Vixama guessed that this was
“so that the police wouldn’t see us.” Initially, Delancy
also told the passengers not to wave their life jackets
in the air to attract the attention of other boats, but
by their sixth day lost at sea, Delancy relented and
the passengers used the life jackets to attract the
attention of the Coast Guard cutter, which rescued
them after their six days at sea with little food or
water.
II. PROCEDURAL HISTORY
A. Indictment
A federal grand jury indicted both Smith and
Delancy on (1) one count of conspiracy to encourage
and induce an alien to come to, enter, and reside in
the United States, knowing and in reckless disregard
of the fact that such coming to, entry, and residence
is and will be in violation of law, in violation of 8
U.S.C. § 1324(a)(1)(A)(v)(I) (Count 1); and (2) 21
counts of knowingly encouraging and inducing an
alien to come to, enter, and reside in the United
States, knowing and in reckless disregard of the fact
that such coming to, entry, and residence is and will
be in violation of law, in violation of 8 U.S.C.
§ 1324(a)(1)(A)(iv), (v)(II) and 18 U.S.C. § 2 (Counts
2-22). The grand jury also charged Smith and

8a
Delancy with one count each of attempted illegal
reentry, in violation of 8 U.S.C. § 1326(a), (b)(2)
(Counts 23 (Delancy) and 24 (Smith)). Both
defendants pled not guilty and proceeded to trial.
B. Material Witness Complaint Against Vixama
Many of the aliens on the boat were never brought
into the United States, but were sent back to Haiti
after being processed by the Coast Guard. However,
four aliens, including Vixama and Francois, were
brought into the United States to be interviewed in
connection with Smith and Delancy’s criminal
conduct. Initially, Vixama was detained in
Immigration and Customs Enforcement (“ICE”)
custody at the Broward Transitional Center.
In December 2016, Agent Nowicki met with
Vixama while she was in immigration detention at
the Broward Transitional Center. During that
meeting, Vixama was anxious and provided Agent
Nowicki with the phone number of her uncle, and
then she called her uncle to put herself at ease. The
uncle’s phone number was the only U.S. contact
information Vixama provided.
Subsequently, on December 22, 2016, the
government filed a material witness complaint
against Vixama and obtained a warrant for her
arrest. On January 12, 2017, Vixama was arrested
on the material witness complaint. Because she was
now under arrest, Vixama was then transferred into
the custody of the U.S. Marshals Service at the
Federal Detention Center in Miami (“FDC Miami”).
When Vixama was transferred to FDC Miami, ICE
personnel within its Enforcement and Removal

9a
Operations (“ICE ERO”) lodged an immigration
detainer against Vixama to ensure that she would be
transferred back into ICE detention for immediate
deportation once the material witness complaint was
dismissed as to the criminal case.
On January 19, 2017, a magistrate judge appointed
attorney David Raben to represent Vixama on the
material witness complaint. On January 27, 2017,
and by agreement of the defendants, the government
took a videotaped deposition of Vixama to preserve
her testimony for trial.1 Defendants Smith, Delancy,
and their respective defense counsel were present
and cross-examined Vixama.
At that time, the parties expected that after
Vixama’s deposition was taken two things would
happen: (1) the material witness complaint would be
dismissed (releasing her from the U.S. Marshals’
custody at FDC Miami), and (2) ICE would then
deport her back to Haiti and she would be
unavailable to testify at trial. If the deposition had
not been taken, then Vixama would have remained
in the U.S. Marshals’ criminal custody until Smith
and Delancy’s trial. The deposition, however, would
allow Vixama to get out of the U.S. Marshals’
criminal custody, and then ICE would deport her
back to Haiti. Smith and Delancy never objected to
the taking of Vixama’s videotaped deposition. Smith
1

The defendants did not require the government to show
“exceptional circumstances” under Federal Rule of Criminal
Procedure 15(a) to take Vixama’s deposition. Rather than
having Vixama, an incarcerated material witness, wait in jail
until the defendants’ trial, the parties agreed she would be
deposed and then deported back to Haiti.

10a
and Delancy do not dispute that their counsel had a
full and adequate opportunity to cross examine
Vixama.
Once Vixama’s videotaped deposition was
completed, a magistrate judge dismissed the
material witness complaint against her on February
3, 2017. At the time, Vixama was still in the U.S.
Marshals’ custody at FDC Miami.
C. Vixama’s Release from Custody
Once the material witness complaint against
Vixama was dismissed as to the criminal case, ICE
ERO personnel had 48 hours to pick Vixama up and
take her into detention pursuant to the immigration
detainer ICE had filed against her. See 18 U.S.C.
§ 3144; 8 C.F.R. § 287.7(d). ICE ERO personnel did
not pick Vixama up within the required 48-hour time
period. As a result, on February 6, 2017, the U.S.
Marshals released Vixama from their custody.2
D. Government’s Multiple Attempts to Locate
Vixama
On February 7, 2017, Agent Nowicki learned of
Vixama’s release and began his efforts to locate her.
Nowicki contacted Vixama’s uncle (whose number
Vixama previously had provided), and he was at
work. Later that night, Nowicki contacted the uncle

2

The same procedure was followed with Francois. He was
held on a material witness complaint, his videotaped deposition
was taken with the government, the defendants, and defense
counsel present, and then Francois was deported back to Haiti.
The only difference as to Vixama is that she was mistakenly
released and then absconded from the trial court’s jurisdiction.

11a
again and obtained the uncle’s address in Coral
Springs, Florida. The next day, Nowicki passed on
the uncle’s contact information to ICE ERO
personnel.
On February 21, 2017, ICE ERO agents went to the
uncle’s house and searched the house for Vixama,
but were unable to locate her. The ICE ERO agents
could not get a straight answer from the occupants of
the house as to whether Vixama was staying there.
The occupants of the house told the ICE ERO agents
“they’re not sure if [Vixama’s] residing there,” but
the ICE ERO agents “felt like they were getting the
runaround.”
In March 2017, Agent Nowicki followed up with the
ICE ERO agents to see if they had located Vixama
but “was told by a supervisor there that they did not
have the manpower to go look for her again.”
On the morning of April 12, 2017, the government
attempted to locate Vixama a third time. The
government emailed Vixama’s former counsel, David
Raben, to see if he knew where Vixama was and to
obtain her contact information. Specifically, the
Assistant United States Attorney (“AUSA”) wrote to
attorney Raben:
I’m writing to see if you have a contact number
or know where your former client, Vanessa
Armstrong Vixama, is currently residing. It is
my understanding that she was released from
the custody of the US Marshalls [sic] before
ICE ERO officers came to pick her up at FDC.
ICE ERO officers have been unable to locate
her to date. Since she hasn’t been deported

12a
yet, we are working to determine if she can be
located to testify at trial or if she is
unavailable to testify.
Less than an hour later, attorney Raben responded:
“I sent an email to family member. I never heard
from client after release. Will keep you advised.” The
following morning, April 13, 2017, attorney Raben
sent another email to the AUSA, stating: “She is in
Delaware[.] She doesn’t have a phone[.] I gave your
contact info to her boyfriend[.]”
Later that same day, April 13, 2017, the AUSA
sent a trial subpoena for Vixama to attorney Raben
via email and again asked for an address or phone
number as follows:
Please find attached a trial subpoena for
Vanessa Armstrong Vixama. Please let me
know if you have an address or phone number
to reach her or know of any other means of
serving this subpoena to her.
Please provide Ms. Vixama[‘s] contact
information for the case agent, Craig Nowicki
....
The subpoena directed Vixama to appear at trial on
April 19, 2017, six days later. A few minutes after
the AUSA sent the trial subpoena, attorney Raben
responded: “I am forwarding info to boyfriend[.]”
On April 15, 2017, the AUSA emailed attorney
Raben again, indicating that if Vixama did not
appear at trial on April 19, the AUSA would then
seek a bench warrant for Vixama. The AUSA’s April
15 email asks:

13a
Have you heard anything back from Ms.
Vixama or her boyfriend? If she doesn’t appear
on Wednesday, April 19th as indicated in the
subpoena, we will be seeking a bench warrant.
About an hour later on April 15, attorney Raben sent
the AUSA an email with the name and phone
number of Vixama’s boyfriend, stating: “You can call
her now at this number.” 3 In a separate email,
attorney Raben stated: “I just emailed you her
number. I believe she will cooperate.” (emphasis
added) From this exchange, it appeared that
attorney Raben had successfully gotten the trial
subpoena to Vixama through her boyfriend and that
Vixama would cooperate.
Later that same day, Agent Nowicki attempted to
call Vixama’s boyfriend, but the call “went to an
unset-up voicemail box” and Nowicki was not able to
leave a message. Agent Nowicki then sent a text
message to the boyfriend identifying himself as a
Homeland Security agent, advising the boyfriend
that Vixama was needed in Miami, and requesting
that Vixama call him back. Agent Nowicki did not
receive a response to this text message.
On April 17, 2017, the first day of trial, the
government informed the district court that it
intended to present Vixama’s deposition testimony.
The government explained that, after her deposition
was taken, Vixama was released from the U.S.
Marshals’ custody and was not picked up by ICE
3

The boyfriend’s name, Florestal Fuegens, is in the record,
but his phone number is not. Thus, we do not know the area
code of the phone number.

14a
ERO personnel to be returned to immigration
detention. The government described the various
steps it had taken to locate Vixama. The government
stated that it still considered her to be “unavailable”
because it had not been able to locate her. In
response, defendant Smith moved that Vixama be
required to testify, arguing that she was “available”
because she was still somewhere within the borders
of the United States and was not yet deported. The
district court directed the parties to file memoranda
and caselaw on the admissibility of Vixama’s
deposition testimony.
E. Parties’ Motions Regarding Admission of
Vixama’s Deposition
On April 18, 2017, the government filed a motion in
limine to use Vixama’s videotaped deposition at trial.
The government argued that it had made good-faith
efforts to locate Vixama and compel her attendance
at trial but had been unable to do so. The
government therefore asserted that Vixama should
be deemed “unavailable” for trial, and her videotaped
deposition should be admitted pursuant to Federal
Rule of Evidence 804 and 8 U.S.C. § 1324. In the
meantime, Agent Nowicki attempted to call and text
Vixama’s boyfriend again on April 18 but again
received no response.
That same day, defendant Smith filed a motion to
exclude Vixama’s deposition, which defendant
Delancy adopted. Smith argued that the government
had not demonstrated Vixama was “unavailable”
under the Federal Rules of Evidence, because it
knew she was in Delaware, and had not made a

15a
reasonable, good-faith effort to ascertain her precise
whereabouts.
The next day, April 19, 2017, the government asked
the district court to issue a bench warrant for
Vixama’s arrest in light of her failure to comply with
the trial subpoena. The district court issued a bench
warrant but did not rule on the motions regarding
the admissibility of Vixama’s deposition. The bench
warrant was entered into the National Criminal
Information Center (“NCIC”) database.
The government also sent a copy of the bench
warrant to Vixama’s former counsel, Raben. And
Raben again attempted to contact Vixama’s
boyfriend but received no response. In an email on
April 20 at 6:05 a.m., Raben informed the prosecutor
that “I spoke to boyfriend this morning and
explained consequences of her failing to contact
agent.”
F. Hearing
Deposition

on

Admissibility

of

Vixama’s

On April 20, 2017 (the fourth day of trial), after the
day’s testimony concluded, the district court
dismissed the jury and held a hearing on the
admissibility of Vixama’s deposition testimony. At
the hearing, Agent Nowicki testified regarding the
above-described events and the government’s
multiple attempts to locate and contact Vixama. The
government emphasized (1) that Vixama was a
deportable alien, (2) that if she now contacted law
enforcement (such as Agent Nowicki), she could be
deported, and (3) that she had every motivation to
hide from the AUSA and law enforcement and to not

16a
make herself available at trial. The government
argued that it made reasonable, good-faith efforts to
obtain Vixama’s presence at trial. Defendants Smith
and Delancy asserted that the government’s efforts
to locate Vixama were insufficient to establish good
faith.
The district court found that Vixama was
“unavailable” and that the government had made
good-faith, reasonable efforts to secure her presence
at trial. The district court rejected the defendants’
contention that the government’s efforts were
“merely perfunctory” and found, based on Agent
Nowicki’s credible testimony, that the government’s
efforts to locate Vixama were reasonable under the
totality of the circumstances. On April 21, 2017,
Vixama’s videotaped deposition was played for the
jury over the defendants’ objection.
G. Convictions and Sentences
The jury found both defendants guilty as charged
on all counts. At sentencing, Smith had a total
offense level of 25 and a criminal history category of
III, resulting in an advisory guidelines range of 70 to
87 months’ imprisonment. Delancy had a total
offense level of 23 and a criminal history category of
V, resulting in an advisory guidelines range of 84 to
105 months’ imprisonment.
The district court sentenced Smith to 87-month
prison sentences on Counts 1 (conspiracy) and 24
(illegal reentry) and 60-month sentences on Counts 2
through 22 (alien smuggling), all to run concurrently
with each other but consecutive to Smith’s revocation
sentence in a separate federal case related to his

17a
prior alien smuggling conviction. The district court
sentenced Delancy to 90-month sentences on Counts
1 (conspiracy) and 23 (illegal reentry) and 60-month
sentences on Counts 2 through 22 (alien smuggling),
all to run concurrently with each other but
consecutive to Delancy’s revocation sentence in a
separate federal case related to his prior illegal
reentry conviction.4
III. VIXAMA’S VIDEOTAPED DEPOSITION
A. Standard of Review
Typically, we review challenges to the district
court’s rulings on the admissibility of evidence for an
abuse of discretion. United States v. Gari, 572 F.3d
1352, 1361 (11th Cir. 2009). But we review de novo a
defendant’s claim that his Sixth Amendment rights
were violated. See id.; see also United States v.
Ignasiak, 667 F.3d 1217, 1227 (11th Cir. 2012) (“A
defendant’s claim that his Sixth Amendment rights
were violated is reviewed de novo.”); United States v.
Yates, 438 F.3d 1307, 1311 (11th Cir. 2006) (en banc)
(“[W]e review de novo Defendants’ claim that their
Sixth Amendment rights were violated.”); United
States v. Siddiqui, 235 F.3d 1318, 1322 (11th Cir.
2000) (“We . . . give plenary review to claims of
constitutional error for a failure to show the
unavailability of an out-of-court declarant.”). Such
claims, however, are subject to harmless error
review. United States v. Lang, 904 F.2d 618, 625-26
(11th Cir. 1990).
4

On appeal, neither defendant raises any challenge to their
guidelines calculations or to the reasonableness of their
sentences.

18a
Here, defendants Smith and Delancy challenge the
admissibility of Vixama’s videotaped deposition only
on the ground that it violated their Confrontation
Clause rights under the Sixth Amendment.
Accordingly, we review their claim de novo.
B. Applicable Federal Rules
Before addressing the Confrontation Clause issue,
we review the relevant federal rules as background.
Federal law provides for the admission at trial of a
material witness’s videotaped deposition testimony
in alien smuggling cases if the witness has been
deported. See 8 U.S.C. § 1324(d). The defendants
agreed to Vixama’s deposition and expected that
Vixama would be deported immediately to Haiti after
that deposition, meaning that her videotaped
deposition would then be admissible at trial under §
1324(d). Id. (“[T]he videotaped (or otherwise
audiovisually preserved) deposition of a witness to a
violation of subsection (a) who has been deported or
otherwise expelled from the United States, or is
otherwise unable to testify, may be admitted into
evidence in an action brought for that violation.”).
Contrary to the expectations of both the defendants
and the government, Vixama was not transferred by
the U.S. Marshals Service to ICE, per the latter’s
detainer, because ICE missed the 48-hour deadline
to take Vixama into custody upon dismissal of the
material witness complaint. That being so, upon her
release, Vixama was able to escape deportation.5

5

Section 1324(d) provides for the videotaped deposition of an
illegal alien and the admission of that deposition at trial so that

19a
Because Vixama had not been deported at the time
of trial, we look to Federal Rule of Criminal
Procedure 15(f), which provides that a witness’s
deposition testimony may be used at trial if the
witness is “unavailable,” as determined by Federal
Rule of Evidence 804. See Fed. R. Crim. P. 15(f) (“A
party may use all or part of a deposition as provided
by the Federal Rules of Evidence.”).
In turn, Federal Rule of Evidence 804(a)(5)(A)
provides that a witness is considered to be
“unavailable” if, among other things, the witness is
absent from the trial and the government “has not
been able, by process or other reasonable means, to
procure . . . the declarant’s attendance.” Fed. R. Evid.
804(a)(5)(A). If a witness is “unavailable,” the
Federal Rules of Evidence do not exclude as hearsay
the witness’s former testimony given in a lawful
deposition at which the defendant had an
opportunity for cross-examination. Fed. R. Evid.
804(b)(1).
As explained below, unavailability must ordinarily
also be established to satisfy the requirements of the
Confrontation Clause, which we discuss next.
C. Confrontation Clause
The Sixth Amendment’s Confrontation Clause
provides that “[i]n all criminal prosecutions, the
the alien witness may be promptly deported and not have to
suffer prolonged detention until a defendant’s criminal trial. 8
U.S.C. § 1324(d). For the deposition to be admissible, the illegal
alien has to be deported by the time of trial. No one disputes
that Vixama was to be deported as soon as she gave her
deposition.

20a
accused shall enjoy the right . . . to be confronted
with the witnesses against him.” U.S. Const. amend.
VI. Most of the time, this means that a witness must
appear in person and give live testimony at trial if
her statements are to be used against the defendant.
See Crawford v. Washington, 541 U.S. 36, 53-54, 124
S. Ct. 1354, 1365 (2004).
The defendant’s right to a witness’s live testimony
in the courtroom serves many important purposes,
including allowing the jury to observe closely the
witness’s demeanor, expressions, and intonations,
and thereby determine the witness’s credibility. See
Ohio v. Roberts, 448 U.S. 56, 63-64, 100 S. Ct. 2531,
2537-38 (1980), abrogated in part on other grounds
by Crawford, 541 U.S. at 60-69, 124 S. Ct. at 136974. The Supreme Court has emphasized that in-court
confrontation not only allows the defendant to test
the witness’s recollection, but also compels the
witness “to stand face to face with the jury in order
that they may look at him, and judge by his
demeanor upon the stand and the manner in which
he gives his testimony whether he is worthy of
belief.” Id. (internal quotations omitted); see also
Barber v. Page, 390 U.S. 719, 721, 88 S. Ct. 1318,
1320 (1968) (stating same).
Of course, the Supreme Court has also told us that
the right to a witness’s presence at trial is not
absolute. In Crawford, the Supreme Court expressly
held that the testimony of a witness who does not
appear at trial is still admissible, in the
constitutional sense, if these two conditions are met:
(1) the witness “was unavailable to testify”; and (2)
“the defendant had had a prior opportunity for crossexamination.” Crawford, 541 U.S. at 59, 124 S. Ct. at

21a
1369. Accordingly, prior cross-examination alone
cannot substitute for the defendant’s right to live
testimony in the courtroom unless the witness meets
the
Confrontation
Clause’s
requirement
of
“unavailability.” See id.; see also Roberts, 448 U.S. at
65, 100 S. Ct. at 2538 (noting that the “Framers’
preference for face-to-face accusation” requires the
proponent of recorded testimony to demonstrate
unavailability of the witness, “including [in] cases
where prior cross-examination has occurred.”). The
integrity of the fact-finding process is at stake
because the Confrontation Clause is a procedural
protection. Crawford, 541 U.S. at 61, 124 S. Ct. at
1370.
The parties do not dispute that the government
was authorized to take Vixama’s videotaped
deposition, that both the defendants and their
counsel were physically present during the
videotaped deposition, or that the defendants’
counsel had an adequate and full opportunity to
cross-examine Vixama at her deposition. Her
testimony was taken precisely for use at trial, given
she would be deported before trial. In fact, the
government’s direct and redirect examination of
Vixama totals approximately 32 pages, whereas the
cross-examination by defense counsel, together,
totals 79 pages of the deposition transcript. Defense
counsel tested Vixama’s testimony and credibility
with sufficient cross-examination.
Therefore, the sole issue on appeal is whether
Vixama was “unavailable” to testify at the time of
trial.

22a
D. “Unavailable” Witnesses
A witness is “unavailable” for purposes of the
Confrontation Clause if the witness does not appear
and the government has “made a good-faith effort” to
obtain the witness’s presence at trial. Hardy v.
Cross, 565 U.S. 65, 69, 132 S. Ct. 490, 493 (2011); see
also Roberts, 448 U.S. at 74, 100 S. Ct. at 2543
(examining whether the prosecution “made a goodfaith effort” to obtain the witness’s presence at trial
(internal quotation marks omitted)); Siddiqui, 235
F.3d at 1324. Because Vixama did not appear at
trial, our inquiry here narrows to whether the
government made “a good-faith effort” to obtain her
presence.
We do not write on a blank slate as to what
constitutes “a good-faith effort.” The Supreme Court
has told us that whether “a good-faith effort” has
been made is “a question of reasonableness.” Roberts,
448 U.S. at 74-75, 100 S. Ct. at 2543 (emphasis
added) (internal quotation marks
omitted).
Specifically, “[t]he lengths to which the prosecution
must go to produce a witness . . . is a question of
reasonableness.” Id. at 74, 100 S. Ct. at 2543
(internal quotation marks omitted); see Hardy, 565
at 70, 132 S. Ct. at 494 (quoting same).
The Supreme Court has also held that the
prosecution bears the burden to show it made a goodfaith effort to produce the witness. Roberts, 448 U.S.
at 74-75, 100 S. Ct. at 2543. And the “‘possibility of a
refusal is not the equivalent of asking and receiving
a rebuff.’” Id. at 76, 100 S. Ct. at 2544 (quoting
Barber v. Page, 390 U.S. 719, 724, 88 S. Ct. 1318,

23a
1322 (1968)). A good-faith effort, however, does not
require futile acts. Id. at 74, 100 S. Ct. at 2543.
Furthermore, the Supreme Court in Hardy
emphasized that, “[w]hen a witness disappears
before trial, it is always possible to think of
additional steps that the prosecution might have
taken to secure the witness’ presence, but the Sixth
Amendment does not require the prosecution to
exhaust every avenue of inquiry, no matter how
unpromising.” Hardy, 565 U.S. at 71-72, 132 S. Ct. at
495. The Supreme Court in Hardy also pointed out
that in Roberts, “[w]e acknowledged that there were
some additional steps that the prosecutor might have
taken in an effort to find the witness, but we
observed that ‘[o]ne, in hindsight, may always think
of other things’” that could have been done. Id. at 70,
132 S. Ct. at 494 (quoting Roberts, 448 U.S. at 75,
100 S. Ct. at 2544).
Although our Circuit has little precedent in this
area, we have applied Roberts’s reasonableness
standard before. Siddiqui, 235 F.3d at 1324 (11th
Cir. 2000) (citing Roberts, 448 U.S. at 74, 100 S. Ct
at 2543 and acknowledging that “[t]he lengths to
which the government must go to produce a witness
is a matter of reasonableness”). Siddiqui involved
two foreign witnesses who resided in Japan and
Switzerland and were outside of the United States at
the time of the trial. See id. at 1320-21. After the
depositions of both witnesses, the government sent
them letters urging them to come and testify in
person, but the witnesses declined to do so. Id. at
1324-25. Our Court recounted other facts in the case,
such as that during their depositions, the witnesses
already indicated an unwillingness to travel to

24a
attend the trial. Id. at 1324. Given all the factual
circumstances, this Court concluded that the
government had shown that the foreign witnesses
were unavailable despite the government’s good-faith
efforts to obtain their presence at trial. Id.
Of course, Siddiqui involved foreign witnesses
outside the United States at the time of trial. Here,
we must address the different factual situation6 of a
foreign witness, like Vixama, who resides in Haiti
and is a Haitian citizen, but is temporarily within
the United States at the time of trial. Yet that is far
from the whole story. In this case, the missing
foreign witness Vixama (1) has no cell phone or
address in the United States, (2) is illegally here, and
(3) has absconded from the jurisdiction of the trial
court in Florida to avoid detention and immediate
deportation to Haiti. Although the government
successfully sent a trial subpoena to the witness
Vixama, through her former attorney and her
boyfriend, and her former attorney reported back to
the government that she would cooperate, Vixama
still refused to appear at trial.
We are unaware of a similar factual case, but we do
know from the Supreme Court that there is no
brightline rule for reasonableness, and that a
reasonableness inquiry necessarily is fact-specific
and examines the totality of the factual
circumstances of each particular case. See, e.g.,
6

Because the foreign nationals in Siddiqui were outside the
United States, the United States could only request them to
appear with perhaps a promise to pay for their travel. Thus,
Siddiqui is not instructive here where the witness was
physically present in the United States.

25a
Roberts, 448 U.S. at 75-77, 100 S. Ct. at 2543-45
(basing its reasonableness determination on all the
“facts presented”); United States v. Banks, 540 U.S.
31, 36, 124 S. Ct. 521, 525 (2003) (treating
“reasonableness as a function of the facts of cases so
various that no template is likely to produce sounder
results than examining the totality of circumstances
in a given case”); Ohio v. Robinette, 519 U.S. 33, 39,
117 S. Ct. 417, 421 (1996) (eschewing “bright-line
rules,” emphasizing “the fact-specific nature of the
reasonableness inquiry,” and instructing courts to
examine “the totality of the circumstances”); Ker v.
California, 374 U.S. 23, 33, 83 S. Ct. 1623, 1629-30
(1963) (emphasizing “there is no formula for the
determination of reasonableness” and “[e]ach case is
to be decided on its own facts and circumstances”
(internal quotation marks and alterations omitted)).7

7

While Roberts is a Confrontation Clause case, the Supreme
Court has adopted a reasonableness standard for evaluating the
government’s conduct as to other constitutional rights of a
defendant. In doing so, the Supreme Court consistently has
emphasized that a reasonableness inquiry is highly factspecific. See, e.g., United States v. Arvizu, 534 U.S. 266, 273-74,
122 S. Ct. 744, 750-51 (2002) (explaining the Supreme Court
has “deliberately avoided reducing [reasonableness] to a neat
set of legal rules” (internal quotation marks omitted)); Missouri
v. McNeely, 569 U.S. 141, 150, 133 S. Ct. 1552, 1559 (2013)
(explaining “the fact-specific nature of the reasonableness
inquiry . . . demands that we evaluate each case of alleged
exigency based on its own facts and circumstances.” (citation
and internal quotation marks omitted)); Stephens v.
DeGiovanni, 852 F.3d 1298, 1315 (11th Cir. 2017) (stressing the
reasonableness standard “requires careful attention to the facts
and circumstances of each particular case” (internal quotation
marks)); Rodriguez v. Farrell, 280 F.3d 1341, 1346-47 (11th Cir.
2002) (emphasizing “we must evaluate the totality of the

26a
Therefore, our task is to examine the government’s
cumulative efforts here to determine if the district
court correctly decided that the government made a
good-faith, reasonable effort to obtain Vixama’s
presence at trial.
E. Discussion
Given the specific facts of this case recounted at
length above, we are convinced that the district court
did not err in admitting Vixama’s videotaped
deposition testimony.
We start with how Agent Nowicki attempted to
locate Vixama multiple times. Immediately after
learning of Vixama’s release on February 6, 2017,
Agent Nowicki on February 7 contacted her uncle,
whose name and phone number Vixama had
previously provided. During Agent Nowicki’s two
efforts to contact the uncle, he was successful in
obtaining the uncle’s address. After doing that,
Agent Nowicki requested that ICE ERO agents visit
the uncle’s house to look for Vixama.
The ICE ERO agents then did that on February 21,
2017. They even searched the house, but were unable
to locate Vixama and found her relatives to be
uncooperative. And after the ICE ERO agents failed
to locate Vixama at the uncle’s house, Agent Nowicki
followed up with them again about Vixama in March
2017. Ultimately, Agent Nowicki was told ICE ERO
did not have the manpower to look for her again at
that time.

circumstances surrounding
reasonableness”).

the

arrest

to

determine

its

27a
Importantly, at this juncture, Vixama had given
her deposition, the material witness complaint had
been dismissed, and Agent Nowicki had no basis to
take her into custody. Significantly, though, there
was still an immigration detainer against Vixama. It
was plainly reasonable for Agent Nowicki to turn
initially to ICE for help in locating Vixama.
Even so, the government’s efforts to locate Vixama
did not stop. In the week leading up to the April
trial, the government continued its efforts to locate
Vixama by reaching out to her former counsel Raben
four times, issuing a trial subpoena, and thrice
attempting to communicate with Vixama using her
boyfriend’s cell phone number. It was patently
reasonable for the government to contact Raben, as
Vixama’s former counsel, to try to locate her. Raben
had represented Vixama regarding the material
witness complaint against her in this very case. As
such, Raben had an established relationship with
Vixama and access to her in a way that the
government did not. And Vixama had no address or
cell phone.
Moreover, the government’s efforts through
attorney Raben did not fall on deaf ears. As
evidenced by the email communications recounted
above, former counsel Raben advised the government
that although Vixama did not have a phone number,
he
was
forwarding
the
government’s
communications, and later the trial subpoena, to
Vixama through her boyfriend. The government thus
made good progress as the government had gotten
Vixama’s former counsel to send her the subpoena.
Subsequently, on April 15, Raben even advised that
he believed Vixama “will cooperate.” Given how little

28a
information the government had and how promptly
and helpfully Raben contacted her boyfriend and
responded, it was also reasonable for the government
to rely on these efforts through Vixama’s former
lawyer.
Further, given that Raben had represented Vixama
as to the material witness complaint, it was also
reasonable to rely on her former attorney’s
assessment and representation that she “will
cooperate.” When Vixama did not appear the third
day of trial on April 19, the government obtained a
bench warrant and also sent it to her former
attorney, once again in an effort to secure her
presence at trial. Her attorney then tried to contact
the boyfriend again (who had been responsive to
Raben about the trial subpoena). But this time, the
boyfriend did not respond to even attorney Raben.
We also cannot ignore Vixama’s obvious
determination to go into hiding and to elude capture.
She had three times before failed to obtain a visa to
the United States, which led to her attempt to sneak
to the United States via the defendants’ illegal
smuggling scheme. Then, when she was mistakenly
released, she immediately capitalized on that
mistake by absconding and fleeing from the
jurisdiction of the trial court in Florida. While her
boyfriend was reportedly in Delaware and initially
cooperative with Vixama’s former lawyer, he then
stopped responding to calls or texts to his cell phone.
Given these undisputed circumstances, it was
reasonable for the government to try to locate
Vixama through her former lawyer, which is
confirmed by the facts that the lawyer quickly and
helpfully responded to the government and then

29a
successfully sent the trial subpoena to Vixama
through her boyfriend. And once Vixama failed to
appear at trial, it was also reasonable for the
government to send the bench warrant to her former
lawyer in an effort to obtain her presence.
Simply put, the Confrontation Clause does not
require the government to make every conceivable
effort to locate a witness; it requires only a good-faith
effort that is reasonable under all of the
circumstances of the case. See Hardy, 565 U.S. at 6970, 132 S. Ct. at 493-94; Roberts, 448 U.S. at 74-76,
100 S. Ct. at 2543-44. As the Supreme Court has told
us, “[o]ne, in hindsight, may always think of other
things.” Roberts, 448 U.S. at 75, 100 S. Ct. at 2544.
“[G]reat improbability that such efforts would have
resulted in locating the witness, and would have led
to her production at trial, neutralizes any intimation
that a concept of reasonableness required their
execution.” Id. at 75-76, 100 S. Ct. at 2544; see also
Hardy, 565 U.S. at 70-72, 132 S. Ct. at 494-95.8 That
epitomizes this case.
At bottom, a reasonable, good-faith effort is casespecific and contextually driven. Vixama had no
phone or address, had absconded outside the State of
8

In Roberts, the witness’s mother testified that her daughter
was traveling outside of Ohio, that she had not heard from her
in over a year, and that she and her family knew of no way to
reach the witness even in an emergency. Roberts, 448 U.S. at
75, 100 S. Ct. at 2543-44. The prosecutor knew a social worker
in San Francisco had called the mother about her daughter, but
the prosecutor did not attempt to locate the social worker or
daughter in San Francisco. Id. at 75, 100 S. Ct. at 2544.
Nonetheless, the Supreme Court concluded the prosecutor’s
efforts were reasonable.

30a
Florida, was in hiding, and had a strong incentive
not to be found. The government had extremely
limited information regarding her whereabouts, but
yet the government succeeded in having the trial
subpoena sent to her through her former attorney
and boyfriend. While the government’s multiple
efforts and pursuit of different ways to locate
Vixama—first at her uncle’s house, then through her
former attorney, and finally through her boyfriend—
were unavailing, they constituted a good-faith effort
that was reasonable under the factual circumstances
of this case.
Accordingly, we affirm the district court’s
admission of Vixama’s videotaped deposition at trial.
See Roberts, 448 U.S. at 75-77, 100 S. Ct. at 2543-45
(affirming the admissibility of prior recorded
testimony of a witness outside the state where the
prosecutor sent subpoenas to the home address of the
witness’s parents although the prosecutor knew the
witness was not there and the parents had no way to
reach her); United States v. Thomas, 705 F.2d 709,
711-12 (4th Cir. 1983) (affirming the admissibility of
prior recorded testimony where the two witnesses
vanished and the government attempted in vain to
locate them).
IV. PROSECUTORIAL MISCONDUCT
Smith also argues that the prosecutor made
inappropriate comments during closing argument.
We review this prosecutorial misconduct claim de
novo. See United States v. Sosa, 777 F.3d 1279, 1294
(11th Cir. 2015).

31a
A. Prosecutor’s Statements During Closing
Argument
Prior to trial, the government noticed its intent to
introduce, under Federal Rule of Evidence 404(b),
Smith’s prior 2013 conviction for alien smuggling.
The notice explained that Smith pled guilty in June
2013 to a single count of alien smuggling for profit,
in violation of 8 U.S.C. § 1324(a)(2)(B)(ii), and argued
this prior conviction was relevant to establish,
among other things, Smith’s knowledge, intent, and
lack of mistake in the present case. Smith responded
that the district court should not allow the
government to introduce his prior conviction, but the
district court ultimately allowed the government to
admit the first page of the judgment from Smith’s
prior conviction at trial. 9 The judgment indicated
that Smith’s prior case was prosecuted in the West
Palm Beach division of the Southern District of
Florida.
During closing arguments, Smith’s counsel argued
that a true alien smuggler likely would take the most
direct route from the Bahamas to the United States
to avoid detection by law enforcement on the open
seas. That route, counsel asserted, would be the one
directly west from Freeport, Bahamas to Boynton
Beach, Florida. Counsel noted that was not the route
Smith took and contended that Smith’s explanation
9

Smith does not challenge the admission of his prior
conviction on appeal. The government also admitted the first
page of Delancy’s judgment of conviction for his prior illegal
reentry case, which also was prosecuted in the West Palm
Beach Division. Delancy likewise does not challenge the
admission of his prior conviction on appeal.

32a
that he was going to Bimini made the most sense
given where his boat ultimately ended up.
In rebuttal, the government pointed to the fact that
Smith’s prior conviction occurred in West Palm
Beach (which is near Boynton Beach) to explain why
the defendants chose not to take the most direct
route from the Bahamas to Florida. Smith’s counsel
objected and reserved a motion for mistrial. The
district court overruled Smith’s objection, and the
government continued its argument, stating:
It’s not an accident that they’re down south of
Bimini as opposed to going straight across.
When you bring 21 aliens into the United
States, you don’t come into a marina, a port, a
harbor. You’re smuggling these aliens into the
country illegally. So . . . to go down south away
from where you’re last caught, it’s not an
accident or mistake. You’re trying to get in
undetected.
After the government concluded its rebuttal, Smith
moved for a mistrial based on the government’s
comments.
Smith
contended
that
it
was
inappropriate for the government to argue that his
prior conviction occurred in West Palm Beach simply
because the judgment came from the West Palm
Beach division. Smith explained that the Southern
District of Florida extends from Key West to Fort
Pierce, and activity that occurs in one division within
the district may be indicted in a different division.
Smith asserted that it was “extremely misleading” to
say his prior offense was committed in West Palm
Beach.

33a
The government responded that the case number
for Smith’s prior conviction also indicated the case
originated in West Palm Beach. The government
further asserted that Smith opened the door with his
argument that smugglers would take the most direct
route between the Bahamas and Florida.
The district court denied Smith’s motion for a
mistrial, finding the government’s statement that
the prior conviction occurred in West Palm Beach
was accurate and not misleading. The district court
further determined that Smith opened the door by
emphasizing that it made no sense for Smith not to
take the shortest route, and the government’s
argument in response to that point was fair.
B. Discussion
To show prosecutorial misconduct, the defendant
must show that (1) the prosecutor’s remarks were
improper, and (2) the remarks prejudicially affected
his substantial rights. United States v. Sosa, 777
F.3d 1279, 1294 (11th Cir. 2015). A defendant’s
substantial rights are prejudicially affected when
there is a reasonable probability that, absent the
remarks, the outcome of the trial would have been
different. Id.
The prosecutor’s comments during closing
argument must be viewed in the context of the trial
as a whole. United States v. Reeves, 742 F.3d 487,
505 (11th Cir. 2014). Though the prosecutor may not
exceed the evidence presented at trial in closing
arguments, he may state conclusions drawn from the
evidence. Id. The prosecutor is also entitled to make
a fair response to defense counsel’s arguments, and

34a
issues raised by the defendant in his closing
argument are fair game for the prosecution on
rebuttal. Id.
Here, the district court did not err in denying
Smith’s motion for a mistrial based on the
prosecutor’s comments about Smith’s prior conviction
during closing arguments. The prosecutor’s
statement that Smith’s prior alien smuggling
conviction occurred in West Palm Beach was
accurate—the judgment of that conviction, which
was admitted into evidence at trial, indicates that it
was entered in the West Palm Beach division of the
Southern District of Florida. And as the district court
noted, the prosecutor’s remarks were made in direct
response to Smith’s argument during his closing that
it would make no sense for an alien smuggler not to
take the most direct route from the Bahamas to
Florida. Given that argument by Smith, it was not
unfair for the prosecutor to point out, as a potential
motive for taking a different route, that Smith’s prior
conviction occurred in the same area where the most
direct route would lead. See id. at 505.
Even assuming arguendo that Smith showed the
prosecutor’s comments were improper, his claim still
fails because the comments did not affect his
substantial rights. Sosa, 777 F.3d at 1294. Ample
evidence at trial supported the jury’s verdict that
Smith was engaged in alien smuggling. Francois and
Vixama both testified that the boat left Freeport late
at night, under cover of darkness; that they believed
they were traveling to the United States; and that
the defendants instructed them not to draw attention
to their boat while they were lost at sea. Vixama also
testified that her family paid $5,000 for her passage

35a
to Miami. The Coast Guard witnesses testified that
Smith’s story—that he was traveling to Bimini—was
suspicious, given the location in which the boat was
found and the direction of the currents in that area.
And both the CBP pilot and Agent Nowicki testified
that alien smugglers do not always take a direct
route and often take evasive actions to disguise their
activities. There is not a reasonable probability that,
but for the prosecutor’s comment on rebuttal, the
jury would have found Smith not guilty. Id. at 1294.10
V. CUMULATIVE ERROR
Under the cumulative error doctrine, an
aggregation of otherwise nonreversible errors can
warrant reversal where the combined effect of the
errors denied the defendant his constitutional right
to a fair trial. See United States v. Mosquera, 886
F.3d 1032, 1052 (11th Cir. 2018). But “where there is
no error or only a single error, there can be no
cumulative error.” United States v. King, 751 F.3d
1268, 1277-78 (11th Cir. 2014) (internal quotations
omitted).
Here, as explained above, the district court
committed no error. Smith’s claim of cumulative
error therefore lacks merit.11 Id.

10

Delancy’s brief purports to adopt Smith’s arguments as to
this claim “as pertinent to him.” Notably, however, Delancy did
not object to the prosecutor’s closing argument or join Smith’s
motion for a mistrial. In any event, Delancy’s adopted claim
fails for the same reasons Smith’s does.
11

To the extent Delancy purports to raise a claim of
cumulative error, his claim likewise fails.

36a
VI. RESPONSE TO DISSENT ABOUT
VIXAMA’S DEPOSITION
Our colleague concurs in our majority opinion
except as to the admission of Vixama’s videotaped
deposition. The dissent does not dispute that (1) the
defendant’s counsel, with the defendants present,
had a full opportunity to cross-examine Vixama
during her videotaped deposition, (2) that Vixama’s
deposition is admissible if she was unavailable, and
(3) that a witness is unavailable if she does not
appear at trial and if the government demonstrates
it made a good-faith, reasonable effort to obtain her
presence. The dissent parts company, however, with
the majority opinion’s affirmance of the district
court’s admission of Vixama’s videotaped deposition
based on its determination that the government
made a good-faith, reasonable effort to obtain
Vixama’s presence at trial but she failed to appear.
We respond to the dissent’s 43-page criticism of
this portion of our majority opinion, in three parts
below: (1) why the dissent’s claim—that the majority
opinion “does not heed the lessons of Hardy and
Roberts”—is just flat wrong; (2) why the dissent’s
analysis of what constitutes a good-faith, reasonable
effort is flawed in multiple ways; and (3) why the
four decisions of other circuits, discussed by the
dissent, demonstrate the fact-specific nature of the
reasonableness inquiry and why the majority opinion
properly applies the reasonableness standard to the
facts of this case.

37a
A. Lessons of Roberts and Hardy
We start with the dissent’s accusations that our
majority opinion “does not heed the lessons of Hardy
and Roberts,” and “completely misses th[e] lesson
from Hardy and Roberts.” Dissenting Op. at 94, 96.
Because the dissent cherry picks a phrase or two
from those decisions out of context, those two
Supreme Court decisions warrant a full discussion.
These decisions actually support the majority
opinion. In fact, in both Roberts and Hardy, the
Supreme Court upheld the trial court’s admission of
prior recorded testimony of a witness who did not
appear at a criminal trial, just as we do here in
upholding the district court’s admission of the prior
recorded testimony of Vixama, who likewise did not
appear at trial.
More specifically, in Ohio v. Roberts, the Supreme
Court upheld the trial court’s decision to admit the
preliminary hearing testimony of a key witness,
Anita, who did not appear at trial. See 448 U.S. at
60, 77, 100 S. Ct. at 2536, 2545. Between November
1975 and March 1976, the criminal case was set and
reset for trial four times with repeated continuances
leading to new trial dates. Id. at 59, 100 S. Ct. at
2535. Each time, the government sent trial
subpoenas to the witness, Anita, at her parents’ Ohio
address, resulting in five subpoenas sent there. Id.
Although the government knew the witness (Anita)
had not been at that residence for a long time, her
parents’ home was her “last-known real address.” Id.
at 59, 76, 100 S. Ct. at 2535, 2544.
After the preliminary hearing on January 10, 1975,
Anita had left for Arizona, and, a year before trial, a

38a
San Francisco social worker communicated with the
parents about Anita’s welfare application. Id. at 5960, 100 S. Ct. at 2535-36. After that time, though,
the witness had called her parents only once and had
not been in touch with her siblings. Id. During that
last phone call, which occurred about seven or eight
months before trial, the witness Anita told her
parents that she “was traveling” outside Ohio, but
she did not advise them of where she was. Id. The
witness’s mother attested that she knew of no way to
reach the witness, even in case of emergency, and
that she did not “know of anybody who knows where
she is.” Id. (citation and internal quotation marks
omitted).
In holding the preliminary hearing testimony was
admissible, the Supreme Court stressed that “[g]iven
these facts, the prosecution did not breach its duty of
good-faith effort.” Id. at 75, 100 S. Ct. at 2544. The
Supreme Court emphasized that, “[t]o be sure, the
prosecutor might have tried to locate by telephone
the San Francisco social worker with whom [Anita’s
mother] had spoken many months before and might
have undertaken other steps in an effort to find
Anita.” Id. The Supreme Court reasoned that “[one],
in hindsight, may always think of other things” to do.
Id. But the Supreme Court noted that the prosecutor
had sent multiple subpoenas to Anita’s “last-known
real address” and “had no clear indication, if any at
all, of Anita’s whereabouts.” Id. at 76, 100 S. Ct. at
2544. Her last known address, of course, was her
parents address in Ohio, where the witness had not
been since the preliminary hearing in January 1975,
some 14 months before the trial. See id. at 59-60, 76,
100 S. Ct. at 2535-36, 2544.

39a
For sure, Roberts is not on all fours with this case.
Nonetheless, it teaches that the prosecutor is not
required to pursue every lead or step in order to be
deemed to have acted reasonably. Importantly,
Roberts illustrates that reasonableness depends on
the particular facts of each case and makes clear that
it is not our job to second guess, in hindsight, the
prosecutor’s efforts. Plus, Roberts upheld the
admission of the prior preliminary hearing testimony
where the government’s efforts were arguably far
less than those here. All the prosecutor did in
Roberts was send a subpoena to Anita’s parent’s
address each of the multiple times the case was
reset. See id. at 59, 75, 100 S. Ct. at 2535, 2544.
The dissent also relies heavily on Hardy v. Cross,
but there again the Supreme Court upheld the state
trial court’s admission of a victim’s prior testimony
when she did not appear at trial. 565 U.S. at 70-72,
132 S. Ct. at 494¬95.12 In Hardy, the defendant was
charged with the kidnapping and sexual assault of
victim A.S. Id. at 66, 132 S. Ct. at 491. A.S. testified
and was cross-examined at Cross’s first trial, which
ended in his acquittal on the kidnapping charge and
a mistrial on the sexual assault charges. Id.

12

Similar to this case, Roberts was a direct appeal with de
novo review. In contrast, Hardy involved a 28 U.S.C. § 2254
petition challenging a state conviction, where the Supreme
Court applied a deferential review under the Antiterrorism and
Effective Death Penalty Act of 1996, 28 U.S.C. § 2254. Yet
because the dissent alleges that the majority opinion
purportedly failed to heed Hardy’s lessons, we likewise explain
why the dissent’s observation is wrong.

40a
Victim A.S. initially indicated that she was willing
to testify again at the retrial, and the prosecutor
“remained in constant contact with A.S. and her
mother” leading up to the retrial. Id. at 66, 132 S. Ct.
at 492 (internal quotation marks omitted). However,
before the retrial, A.S.’s mother and brother
informed the state’s investigator that they did not
know where A.S. was, and A.S.’s mother stated that
A.S. was afraid to testify again. Id. The investigator
later spoke to A.S.’s father, who did not know where
A.S. was. Id. at 66-67, 132. S. Ct. at 492. Thereafter,
the state undertook various efforts to locate A.S.,
including keeping in contact with her family
members, visiting A.S.’s last known address (her
mother’s house), and conducting checks with various
government agencies. Id. at 67-68, 132 S. Ct. at 49293. On a final visit to the mother’s house on the day
before the retrial, A.S.’s mother told police that A.S.
had called two weeks earlier and said she did not
want to testify and would not return to Chicago for
the retrial. Id. at 68, 132 S. Ct. at 493. A.S.’s mother
also told police she did not know where A.S. was or
how to reach her. Id.
The state trial court admitted A.S.’s prior
testimony at Cross’s retrial. Id. at 68-69, 132 S. Ct.
at 493. Cross was convicted of sexual assault. Id.
Affirming, the Illinois Court of Appeals agreed with
the trial court that A.S. was unavailable and that the
state made a good-faith effort to locate her. Id. at 69,
132 S. Ct. at 493. The Illinois Court of Appeals
agreed A.S. was unavailable because “[i]t is clear
from her telephone conversation with her mother
that she was not in the city” and “also evident that
she was in hiding and did not want to be located.” Id.

41a
at 69, 132 S. Ct. at 493 (internal quotation marks
omitted).
Cross then filed a federal habeas corpus petition,
arguing in part that the admission of A.S.’s prior
testimony violated his Confrontation Clause rights.
Id. After the district court denied Cross’s petition,
the Seventh Circuit reversed. Id. The Seventh
Circuit faulted the prosecutor for failing to contact
A.S.’s current boyfriend or her other friends in the
Chicago area, for not contacting the cosmetology
school where A.S. was once enrolled, and for
neglecting to even serve A.S. with a subpoena after
she expressed fear about testifying at the retrial. Id.
at 70-71, 132 S. Ct. at 494-95.
In reversing the Seventh Circuit in Hardy, the
Supreme Court concluded that the Illinois Court of
Appeals’ holding—that the state had made a goodfaith effort to locate A.S. and that the trial court did
not err in admitting her testimony—was not an
unreasonable application of Confrontation Clause
precedent. Id. at 70-72, 132 S. Ct. at 494-95. The
Supreme Court remarked that “when a witness
disappears before trial, it is always possible to think
of additional steps that the prosecution might have
taken to secure the witness’ presence,” but
emphasized that “the Sixth Amendment does not
require the prosecution to exhaust every avenue of
inquiry, no matter how unpromising.” Id. at 71-72,
132 S. Ct. at 495 (citation omitted). The Supreme
Court noted that the record did not show that A.S.’s
family members or the other person interviewed
“provided any reason to believe” that they had
information about A.S.’s whereabouts and there was
“no reason to believe” that the cosmetology school

42a
had better information about A.S.’s location that did
her family members. Id. at 71, 132 S. Ct. at 494. As
to the lack of a subpoena, the Supreme Court
stressed also that “[w]e have never held that the
prosecution must have issued a subpoena if it wishes
to prove that a witness who goes into hiding is
unavailable for Confrontation Clause purposes.” Id.
at 71, 132 S. Ct. at 494 (emphasis added).
The dissent lifts this phrase—”reason to believe”—
from Hardy out of context and remolds that dicta
into her proposed legal or per se rule: that the
government does not make a good-faith, reasonable
effort as a matter of law unless it, in effect, pursues
each and every lead it has “reason to believe” might
assist in locating a missing witness. See Dissenting
Op. at 70, 71-72, 75, 77, 80-81, 84, 91, 94, 96-97, 99,
105. Having crafted that rule, the dissent argues
that because database searches are easy, the
government was required to take the additional
investigatory step of searching databases in an
attempt to discover the boyfriend’s address in
Delaware. Then, on top of that, the dissent surmises
that if the government had used databases, it might
have found an address for the boyfriend in Delaware,
and then it might have found Vixama. The dissent
argues a “database search . . . stood a decent chance
of leading the prosecution straight to the boyfriend—
and likely, to Vixama.” Dissenting Op. at 64.
In short, because the government did not attempt
to find the boyfriend’s address through a database
search, the dissent argues its efforts were
unreasonable as a matter of law. To be clear, the
record contains no evidence that the boyfriend ever
had an address in Delaware or that a database

43a
search would have revealed an address for him in
Delaware. No matter, we will nonetheless respond to
the dissent’s arguments that a database search
might have revealed an address for the boyfriend in
Delaware and, thus, the government’s lack of a
database search made its other efforts unreasonable
as a matter of law.
Four responses. First, and most telling, is that the
Supreme Court in Hardy upheld the admission of the
prior testimony and actually reversed the Seventh
Circuit’s conclusion that the prosecutor was required
to take the additional investigatory steps identified
by the Seventh Circuit. One of those steps included
failing to contact A.S.’s current boyfriend or her
friends in the Chicago area. Second, the Supreme
Court did so even though the government had not
served, or even attempted to serve, the witness A.S.
with a trial subpoena in Hardy.
Third, here the prosecutor did follow up on the
boyfriend lead and contacted the boyfriend through
Vixama’s former attorney (as opposed to using
databases). Through Vixama’s former attorney, the
government successfully sent the trial subpoena to
the boyfriend, who was reportedly with Vixama, and
then the government heard back that Vixama “will
cooperate.” 13 Fourth, as explained below, the
dissent’s conclusion that the government made an
unreasonable effort as to the boyfriend amounts to
Monday-morning quarterbacking of the prosecutor
and Agent Nowicki’s efforts in hindsight in favor of
13

Later on in her dissent, our colleague finally acknowledges
that she “do[es] not argue that Vixama did not receive” the trial
subpoena from her boyfriend before trial. Dissenting Op. at 80.

44a
the dissent’s preference for how they should do their
jobs. Clearly, this is not a case where the government
took no action when presented with a new lead.
In short, in both Roberts and Hardy, the Supreme
Court upheld the trial court’s admission of prior
recorded testimony of a witness who did not appear
at a criminal trial. It is our majority opinion—
upholding the admission of Vixama’s videotaped
deposition testimony—that comports with the
Supreme Court’s decisions in Roberts and Hardy, not
the dissent.
B. Dissent’s Flawed Analysis of What
Constitutes a Good-Faith, Reasonable Effort
The dissent’s analysis too narrowly constricts the
type of efforts that may qualify as a good-faith,
reasonable effort in a Confrontation Clause case. For
example, instead of crediting his efforts, the dissent
chastises Agent Nowicki for not personally going to
the home of Vixama’s uncle in Coral Springs, Florida
to look for her and for requesting the assistance of
ICE ERO in Miami. Certainly, Agent Nowicki and
the prosecutor, not ICE, had the responsibility to
produce their own witnesses at trial. But that does
not mean Agent Nowicki should not have sought the
help of ICE ERO in doing so. (In fact, had Agent
Nowicki neglected to contact ICE ERO, we have little
doubt that the dissent would now add this omission
to her list of fault-finding.) The dissent ignores that
the material witness complaint was dismissed after
the deposition, that Vixama had committed no crime,
and that Agent Nowicki had no warrant to take her
back into custody. Instead, it was only ICE that held
a detainer. Although the dissent apparently

45a
disagrees, we think it was plainly reasonable for
Agent Nowicki to ask ICE to help locate Vixama,
given that the detainer allowed ICE to take her back
into custody. Agent Nowicki sought ICE’s assistance
not once, but twice. ICE assisted Agent Nowicki the
first time, but, through no fault of Agent Nowicki,
said it lacked manpower to go back to the uncle’s
house a second time.14
Further, instead of crediting the prosecution’s
successful efforts in getting the trial subpoena to
Vixama, the dissent excoriates Agent Nowicki and
the prosecutor for not finding the boyfriend’s address
in Delaware and for calling him only twice. Repeated
ten times, the dissent’s mantra is “find the
boyfriend’s address in Delaware, find Vixama.”
Dissenting Op. at 64, 77-78, 79, 80, 81, 86, 87, 91, 97,
105.
The dissent’s rhetorical flourish ignores the facts
and reality of this case. First, similar efforts had
already failed in Florida. Indeed, “find the uncle’s
address, find Vixama” had entirely failed. When
Agent Nowicki on February 7 learned of Vixama’s
release on February 6, her uncle in Florida was a
promising lead to find Vixama because before her
mistaken release, Vixama personally had given
Agent Nowicki her uncle’s telephone number. As
14

It is worth repeating that this is a criminal, immigrationsmuggling case and the case agent, Agent Nowicki, worked for
Homeland Security Investigations within the Department of
Homeland Security. After Vixama was released and not
deported, Agent Nowicki appropriately turned to ICE, who had
the detainer, for help in locating her and in securing her
presence for trial.

46a
noted earlier, Agent Nowicki then worked to find an
address for Vixama’s uncle in Coral Springs and then
successfully secured the assistance of ICE ERO in
going to the uncle’s house to locate Vixama. But
despite that good lead in the local Florida
jurisdiction, ICE ERO on February 21 searched the
uncle’s home and looked for Vixama, to no avail
given her relatives’ lack of cooperation. Given that
failed outcome in Florida, it is unclear why Agent
Nowicki would think that even if he got lucky and
found the boyfriend’s address in Delaware, the latter
would reveal Vixama’s whereabouts and help ICE
snatch and jail her in Delaware.
In fact, let’s unpack the multiple investigatory
steps necessarily underlying the dissent’s mantra of:
“find the boyfriend’s address in Delaware, find
Vixama.” Attorney Raben first sent the boyfriend’s
name and telephone number to the prosecutor on
Saturday, April 15. The trial began on Monday, April
17. By 1 p.m. on Friday, April 21, both the
government and the defense had rested.15 Even if we
accept that a database search might have revealed a
street address for the boyfriend in Delaware, the
government
would
still
have
faced
other
investigatory hurdles under the particular facts of
this case. Miami federal officials would have had to
secure the ready help of either their federal HSI
counterparts, or state law enforcement, in Delaware
to attempt to find the boyfriend at that street
address. The federal HSI agents, or state law
enforcement, in Delaware would then have had to
get lucky and actually find the boyfriend at that
15

See timeline recap in footnote 20, infra.

47a
address, and then persuade him to reveal Vixama’s
whereabouts so they could more formally serve the
trial subpoena on Vixama. Assuming that the
boyfriend would help them find the girlfriend he had
presumably been hiding, ICE ERO, which had the
detainer, would have to be on the spot at just the
right moment to grab her, else Vixama would once
again go on the run. (Vixama had not yet failed to
appear at the trial for the bench warrant to issue.)
The reality is that the dissent’s mantra sounds easy
until one actually goes step-by-step through this
process that the dissent says is mandated by her
reasonableness standard as a matter of law.16
Contrary to the dissent’s touted tactics, the
government used the boyfriend lead in a different,
more strategic way. The government tried to work
with the boyfriend through Vixama’s former lawyer
16

Although acknowledging that attorney Raben sent the
prosecutor the boyfriend’s name and phone number on
Saturday, April 15, the dissent does not precisely identify what
the next steps would be if the government found the boyfriend’s
address and if it then persuaded him to reveal Vixama’s
whereabouts. It is unclear whether the dissent is saying the
government (1) could then formally serve the trial subpoena on
Vixama in Delaware or (2) attempt to take Vixama into custody
in Delaware and have her held and transferred back to Miami
for trial (during the week of April 17 to 21). So we consider both
possibilities.
All of this also assumes that ICE would timely transfer
Vixama in custody back to an immigration facility in Miami and
then to the custody of the U.S. Marshals’ Service for trial. In
any event, the dissent’s approach—find the boyfriend’s
address—actually further underscores the reasonableness of
the government’s efforts to work through Vixama’s former
lawyer.

48a
to get the trial subpoena to Vixama and tried to have
her cooperate. The government successfully did so
and, right before trial, the former lawyer even
reported back on April 15 that she “will cooperate.”17

17

The dissent’s lecture in footnote four about the obvious and
undisputed different jobs, roles, and interests of ICE ERO and
the prosecutor is a red herring. The dissent throughout ignores
that ICE already had a detainer to take Vixama into custody,
the material witness complaint was dismissed after the
deposition, and the prosecutor and Agent Nowicki had no pretrial warrant to take Vixama into custody in Delaware; to
secure her presence at trial, they would need to ask ICE to help
them capture her in Delaware and transfer her back to Miami
for trial.
The dissent’s suggestion in footnote four—that we should not
consider at all the ICE ERO’s efforts to locate Vixama in our
good-faith effort analysis—also runs afoul of the Supreme
Court’s clear mandate that we evaluate the reasonableness of
the government’s efforts to obtain a witness by looking to the
totality of the factual circumstances of each particular case.
See, e.g., Roberts, 448 U.S. at 75-77, 100 S. Ct. at 2543-45
(basing its reasonableness determination on all the “facts
presented”). In addition, we are loathe to suggest that
government agencies cannot work together to accomplish a
common goal—here, find Vixama—even if the agencies’
ultimate “interests” are not perfectly aligned. The dissent also
misapprehends the significance of the ICE ERO agents’ trip to
Vixama’s uncle’s house. It is not that the ICE ERO agent’s
attempt to find Vixama relieved the prosecution of its obligation
to make a good-faith effort to obtain her presence at trial. What
is significant is that, at the uncle’s house, the ICE ERO agents
got the runaround from her relatives, who were not helpful at
all in assisting them to locate her. Context is important.
Because of that interaction, it was manifestly reasonable for the
government to reach out to Vixama’s former counsel for
assistance in trying to find her, rather than again approaching
her relatives.

49a
Getting the trial subpoena to Vixama through her
boyfriend and former lawyer was not a meaningless
effort, as the dissent would have it, but was a
significant, reasonable effort given that the boyfriend
appeared to be voluntarily communicating on
Vixama’s behalf with her former lawyer. Because it
appeared that the boyfriend (and Vixama through
him) was cooperating with attorney Raben, it was
reasonable for the government to rely on attorney
Raben to communicate with him rather than to try to
track the boyfriend down independently through
databases and try to persuade him to help federal
law enforcement take Vixama into ICE custody in
Delaware and transfer her to Miami for trial.
Pursuing the boyfriend and Vixama through her
former lawyer, who had represented her in the same
matter, had every indication at the time of being
more fruitful than the “search and lock-her-up”
maneuvers advocated by the dissent with the benefit
of hindsight. Given the record as a whole and all the
investigatory steps that had to succeed to capture
her in Delaware on the immigration detainer (before
the bench warrant issued on April 19), the
government has shown that its working through her
former attorney before the trial was a good-faith,
reasonable effort to get the trial subpoena to her and
to secure her presence at the trial.
Another flaw in the dissent’s critique is the
contradictory treatment of the boyfriend. On one
hand, the dissent advocates that the boyfriend was
key to locating Vixama. But on the other hand, the
dissent complains that the trial subpoena was
emailed to the boyfriend, who apparently could not
be trusted to give the document to Vixama (but who

50a
could be trusted to hand Vixama over to the police),
instead of serving the subpoena on Vixama, whose
whereabouts were unknown. Specifically, the dissent
complains that the government’s communication of
the trial subpoena to Vixama’s former lawyer and
then to her boyfriend “is not ‘service’ under the
Federal Rules of Criminal Procedure.” Dissenting
Op. at 80. Admittedly, the government’s efforts did
not succeed in having Vixama appear at trial, but we
cannot conclude they were unreasonable. Indeed, the
dissent does not seem to contest that Vixama
actually received the trial subpoena through the
government’s efforts in contacting her former lawyer
or that, given the trial subpoena, the district court
properly issued a bench warrant when Vixama failed
to appear on April 19 during the trial.
While the dissent presumably would have taken
different actions had the dissent been the case agent
or the prosecutor in this case, the Sixth Amendment
does not require the prosecution to exhaust every
possible means of producing a witness at trial, and in
hindsight it is also possible to think of “additional
steps” the prosecutor might have taken. See Roberts,
448 U.S. at 75-76, 100 S. Ct. at 2544; see also Hardy,
565 U.S. at 71-72, 132 S. Ct. at 495. Our role is not to
Monday-morning quarterback, but instead to assess
whether the agent’s and the prosecutor’s actions
constituted good-faith efforts that fell within a zone
of
reasonableness.
We
conclude
that
the
government’s actions met this test.
Still another flaw in the dissent’s critique is its
isolation of the actions of Agent Nowicki and the
prosecutor, without considering their efforts
cumulatively. The dissent contends the government’s

51a
efforts were unreasonable because Agent Nowicki
considered the fact that Vixama’s videotaped
deposition was already taken. While the Agent
candidly admitted he considered that fact, he also
testified that he took other steps outlined above and,
ultimately, he weighed multiple other factors,
including that: (1) she had received a subpoena
(through her boyfriend), (2) he had attempted to
contact her boyfriend on several occasions, (3) she
was in the country illegally, (4) there was no longer a
criminal action against her for the Agent to take her
into criminal custody, and (5) ICE was the only
agency who could take her into custody before she
failed to appear at trial. 18 We reject the dissent’s
18

In relevant part, Agent Nowicki’s testimony was as follows:
Q: And since April 15th, there have been no attempts
to ascertain an address in Delaware by running
this gentleman’s name?
A: Not by me.
Q: And, basically, the reason for that is because you
assumed that she’s already given the videotaped
deposition, you didn’t really need to try to find
her?
A: There are various reasons. That’s one of them.
The other one is there are many issues when it
comes to her immigration status and how long—if
she’s taken into custody, how long it would take
the process for her to go from an immigration
facility in Delaware to make it to Miami. She’d
been made aware of the consequences of not
showing up for trial. She had been served with a
subpoena. I had attempted to contact the
boyfriend on several occasions.
....

52a
position that the government’s cumulative efforts
become unreasonable simply because the case agent
considers, as one factor in his continued efforts, that
a videotaped deposition is available.
In fact, neither the case agent, nor the prosecutor,
nor this Court is required to pretend Vixama was
never deposed for the express purpose of having her
deposition presented at trial as allowed for deported
aliens under 8 U.S.C. § 1324(d). This was not
testimony presented at a preliminary hearing or on
the off-chance the witness might become unavailable
later. Rather, the defendants’ counsel crossexamined Vixama as if she were testifying at trial
because everyone assumed this would be her
testimony at trial. For sure, the defendants have not
waived their Confrontation Clause claims, and prior
cross-examination alone cannot substitute for the
government’s burden to establish a witness is
unavailable. See Crawford, 541 U.S. at 59, 124 S. Ct.

Q: Okay. So you were aware that she was missing
since—that she had been released into the
community since February 6th, but, at that time,
you thought that, because the government already
had the deposition, that that would be sufficient
for trial. Is that correct?
A: That was not my basis for not personally looking
for her. She at that point was present in the
country illegally. There was no criminal action
against her. So she was not my responsibility. So
that, combined with knowledge that we do have a
video deposition—I guess those were some factors.
But I can’t point to one factor why I didn’t
personally go look for her. There are numerous
factors.

53a
at 1369. But the entire factual context here is
relevant and important.
The dissent segregates one-by-one the facts used in
our analysis and contends we are using that one fact
to somehow “excuse” or “relieve” the government of
its obligation to make reasonable efforts to secure
Vixama’s presence at trial. See, e.g., Dissenting Op.
at 84-102. Nothing could be further from the truth.
We have taken great pains to emphasize there are no
brightline or per se rules when evaluating the
government’s good-faith efforts. Lest there be any
confusion, we reiterate that we reach our conclusion
that the government’s efforts here were reasonable
only after considering all of the particular
circumstances of this case together—that is, in their
totality or cumulatively.
In sum, our majority opinion faithfully follows that
fact-bound reasonableness standard, as it must. And
given the totality of the circumstances here, the
government has demonstrated that it made goodfaith, reasonable efforts to obtain Vixama’s presence
at trial.19 We readily agree with the district court in
Miami, who carefully considered the case, conducted
a hearing outside the presence of the jury, and found
that Vixama was “unavailable” before admitting

19

The dissent’s arguments about the burden of proof are
unfounded. The majority opinion expressly states: “The
Supreme Court has also held that the prosecution bears the
burden to show it made a good-faith effort to produce the
witness.” See supra at 23 (citing Roberts, 448 U.S. at 74-75, 100
S. Ct. at 2543). Nothing in the majority opinion shifts the
burden of proof to the defendants.

54a
Vixama’s videotaped deposition on the last day of the
trial.20
20

Later on, the dissent finally acknowledges that (1) “the
government was right to contact Vixama’s former attorney” and
try to go through him before the trial began, and (2) she does
“not argue Vixama did not receive” the trial subpoena from her
boyfriend. Dissenting Op. at 80, 90. But then the dissent
mistakenly argues that the government had sufficient time to
find the boyfriend’s address and locate Vixama during the 5-day
trial week. See Dissenting Op. at 90-91.
This ignores the timeline about the bench warrant. To recap,
the trial subpoena “commanded” Vixama to appear for trial on
April 19. On Saturday, April 15, attorney Raben emailed the
prosecutor advising that he believed Vixama “will cooperate.”
The trial began on Monday, April 17, with jury selection that
day. On Tuesday, April 18, the jury was sworn and, after
opening statements, the government presented four witnesses.
On Wednesday, April 19, the government presented seven
witnesses. When Vixama did not appear on Wednesday, April
19, the trial court issued the bench warrant that day around
noon.
On April 20, the government presented Francois’s deposition
and two witnesses. After that, the district court held a hearing
about Vixama’s deposition, found her “unavailable,” and
concluded the deposition was admissible. On Friday, April 21,
the trial resumed at 9:40 a.m., and the government presented
Vixama’s deposition and rested its case by 11:50 a.m. By
approximately 1 p.m., the defense had presented its evidence
and also rested.
There was at best a 48-hour window between the issuance of
the bench warrant around noon on April 19 and the close of the
defendants’ evidence around 1 p.m. on April 21. This is why the
majority opinion properly focuses on the government’s multiple
efforts prior to the beginning of the trial to locate Vixama with
ICE’s help right after her release in February and again in
March and then in April to send her the trial subpoena through
her former attorney in an effort to have Vixama cooperate and
appear for trial.

55a
C. Dissent’s Citations to our Sister Circuits
The dissent cites four decisions from our sister
circuits. We take the time and space to set forth in
great detail the facts of those decisions because an
awareness of those facts negates the dissent’s
reliance on these cases for her argument that the
district court erred in admitting Vixama’s videotaped
deposition.
The dissent cites Cook v. McKune, where the
defendant Cook, convicted of first-degree murder,
received a sentence of life without parole. Cook, 323
F.3d at 828. These six facts were important to the
Tenth Circuit’s reversal in Cook: (1) the trial court
had admitted the preliminary hearing testimony of
the missing witness Rudell; (2) Rudell was the only
witness to testify that Cook committed the murder;
(3) though a trial subpoena was issued, no attempt
was ever made to serve process on, or even send the
subpoena to, Rudell; (4) Rudell had been granted
immunity in exchange for his cooperation, and thus
the Court said he had a special reason to favor the
prosecution; (5) Cook had not had an adequate
opportunity to cross-examine Rudell at the
preliminary hearing; and (6) Rudell lived on social
security, which is how the government originally
tracked him down for the preliminary hearing, but
the government made no effort to locate him
(through Social Security records or otherwise) to
appear at trial. Id. at 826-28, 832, 834-37, 840.
In light of these highly specific facts, the Tenth
Circuit concluded the government’s “feeble exertions”
could not “be called a good-faith effort.” Id. at 840.

56a
Obviously, the facts in this case in no way resemble
the facts in Cook.
Without setting forth any of its facts, the dissent
also cites McCandless v. Vaughn, another firstdegree murder, life sentence case, where the
government also used the preliminary hearing
testimony of Barth, the only eyewitness to the
murder, at trial. 172 F.3d at 258-59. Witness Barth,
arrested in connection with the murder, agreed to
serve as a cooperating witness in exchange for (1)
being released on bail and (2) having the charges
against him dropped at the successful conclusion of
that case. Id. After testifying at the preliminary
hearing and being released on bail, Barth was
rearrested twice for failing to appear, but the
government did not seek to adjust the terms of his
bail. Id. at 267-68. Barth was released again, and
Barth failed to appear at trial. Id. at 268. The
government did not contact Barth’s father, who had
served as the surety for Barth’s bail. Id. at 268-69.
The Third Circuit concluded that, given the
seriousness of the murder charges, Barth’s crucial
importance as the only eyewitness to the murder,
and his lack of impartiality, defendant McCandless
had a very strong interest in confronting Barth at
trial, and thus the government’s efforts were
insufficient. See id. at 266-70.
Unlike the witnesses in Cook and McCandless, the
witness Vixama did not receive any consideration
from the government for her testimony. Just the
opposite. Vixama was to be deported back to Haiti,
after having tried unsuccessfully to come here three
times before. Also notable is the fact that this case
did not involve a preliminary hearing, as in Cook and

57a
McCandless, but instead here the defendants
themselves and their counsel were all physically
present at the videotaped deposition, which all
expected to be admitted at trial and where defense
counsel thoroughly cross-examined Vixama.
Also unlike Cook and McCandless, this is not an
only-witness-to-a-murder case. Apart from Vixama’s
deposition testimony, there was compelling evidence
that the defendants’ boat was headed to the United
States. The boat was 24 miles from Key Largo,
Florida when found. The witness Francois (also on
the boat) testified that (1) his father told him a trip
was being planned to bring him to the United States,
(2) other passengers told him the boat was headed to
the United States, and (3) Francois likewise believed
the boat was going to the United States. When the
boat was adrift and out of food and fuel for six days,
the defendants told the passengers not to use their
cell phones and not to wave at other boats passing
by. The prior criminal convictions of defendants
Delancy (prior illegal reentry into the United States)
and Smith (prior alien smuggling into the United
States) were even introduced before the jury without
any objection. Certainly, Vixama’s testimony
corroborated Francois’s testimony that he believed
the boat was headed to the United States, but
Francois’s
testimony
was
direct
and
noncontradictory as well, with ample circumstantial
evidence corroborating his testimony.
Without setting forth its facts, the dissent also cites
United States v. Lynch, where the defendant was
convicted of second-degree murder. Similar to Cook
and McCandless, the district court admitted the
preliminary hearing testimony of missing witness

58a
Brown, the only eyewitness to identify defendant
Lynch as the shooter. 499 F.2d at 1014, 1020-21.
During the trial, a detective attempted to locate
Brown at a friend’s apartment, but no one answered
the door. Id. at 1023. Detectives returned to the
apartment the following day, but did not find Brown.
Id. It was later discovered that Brown had been in
the friend’s apartment when the first detective
knocked on the door, had stayed that night, and had
left before the second set of detectives arrived the
next morning. Id. at 1023-24. The D.C. Circuit
concluded that the government’s efforts were
insufficient, pointing out (1) that a preliminary
hearing is less likely to produce extensive crossexamination and impeachment of a witness than a
trial, 21 and (2) that the missing witness was still

21

Because three cases cited by the dissent involved the use of
a witness’s testimony at a preliminary hearing, the D.C.
Circuit’s observation that it is less likely that a defendant will
vigorously cross-examine an adverse witness at such a
proceeding is worth noting. A preliminary hearing is typically
held after a defendant has been charged in a complaint, but
before the government has obtained an indictment or
information. The purpose of a preliminary hearing is to ensure
that the government has probable cause to proceed. See Fed. R.
Crim. P. 5.1 (a), (e)-(f). Even if the court determines no probable
cause exists, that ruling does not preclude the government from
later prosecuting the defendant on the same charge. Fed. R.
Crim. P. 5.1(f). For that reason, although the defendant has a
right to cross-examine all witnesses, Fed. R. Crim. P. 5.1(e), he
may often have little incentive to thoroughly cross-examine an
adverse witness. Instead of attempting to cast doubt on the
witness’s testimony, a defendant may instead use his
opportunity to question the witness as a means to obtain
discovery as to the witness’s account and the government’s case.
And a defendant may be disinclined to aggressively question an

59a
within the jurisdiction of the district court.22 Id. at
1023-24. Those two factors influenced the D.C.
Circuit’s decision and they are entirely absent in this
case. Indeed, the dissent does not disagree that the
defendants’ cross-examination of Vixama during her
deposition testimony was thorough nor that Vixama
was somewhere outside the Southern District of
Florida.
We also discuss the Fifth Circuit’s decision in
United States v. Tirado-Tirado, 563 F.3d 117 (5th
Cir. 2009), because the defendants cite it and the
dissent discusses it too. In our view, Tirado-Tirado, if
anything, readily demonstrates why the government
has shown a good-faith, reasonable effort here. Five
months before the defendant’s trial, the parties took
a videotaped deposition of a witness who everyone
expected to return for trial. Id. at 120. The witness
gave his contact information to his attorney, was
released, and voluntarily returned to Mexico. Id. at
adverse witness and thereby reveal his cross-examination
strategy in advance of trial.
In stark contrast to a preliminary hearing, defendants in this
case knew that Vixama would not be testifying at trial, that her
deposition testimony would be presented to the jury, and that
this deposition would be their only opportunity to crossexamine her. Although we are dealing here with the question of
an absent witness’s availability at trial, so were the circuit
cases cited by the dissent, and to evaluate fairly the
applicability of those cases to our own, we must consider the
entire factual context within which their decisions were made.
22

Beyond the factual distinctions between this case and
Lynch, it should also be noted that there was a vigorous dissent
in Lynch to the ruling that the government’s efforts were
insufficient. See Lynch, 499 F.2d at 1025-41 (MacKinnon, J.,
dissenting).

60a
120, 123. Yet, notwithstanding the expectation that
this witness would be needed at trial, the
government failed to give the witness written notice
regarding the trial date and failed to send him a
subpoena. Id. at 123.
Reversing, the Fifth Circuit emphasized that (1)
the government had not attempted to remain in
contact with the alien witness at all during the
intervening five months (between the deposition and
the trial), and (2) the government “did not make any
effort” to contact the witness to make concrete
arrangements for his transportation from Mexico to
the United States and his attendance at trial until
only eight days before trial. Id. at 124-25. The Fifth
Circuit concluded that “[t]he failure to make such
minimal efforts demonstrates a lack of good faith on
the part of the government,” and as such, the alien
witness was not unavailable for purposes of the
Confrontation Clause. Id.
Unlike in Tirado-Tirado, the parties here never
anticipated that Vixama would provide live
testimony at trial. Rather, they took Vixama’s
videotaped deposition because she was a material
witness in custody (although she herself had
committed no crime), and after her deportation she
would be unavailable to testify. By contrast, the
parties in Tirado-Tirado took the alien witness’s
deposition only as a precaution, fully expecting that
the alien witness would return to testify in person.
See id. at 520. Given that understanding in TiradoTirado, the government could reasonably be expected
to maintain at least some contact with the witness
and ensure his appearance at trial. See Tirado-

61a
Tirado, 563 F.3d at 520; see also Siddiqui, 235 F.3d
at 1325.
More
importantly,
in
Tirado-Tirado,
the
government “made no effort” whatsoever to keep in
touch with the alien witness or to remain apprised of
his whereabouts in the over five months between the
taking of his deposition and the trial. Id. at 125. The
government “made no effort” to contact the witness,
despite having access to the witness’s contact
information through his attorney. Id. In contrast, as
soon as Agent Nowicki discovered that Vixama had
been released in February 2017, he began trying to
locate her by contacting her uncle—the only
connection Vixama indicated she had in the United
States. Later that month (February), at Nowicki’s
request, ICE ERO agents went to the uncle’s house
to search for Vixama, and then in March, Nowicki
reached out to ICE ERO again to see whether
Vixama had turned up. In short, though the rest of
the government’s efforts to locate Vixama took place
in early April, the government here also took earlier
steps in February and March to locate her.
In other words, this is not a case in which the
government “made absolutely no effort” to locate
Vixama and obtain her presence at trial after
learning of her mistaken release from custody. See
id.; see also Barber, 390 U.S. at 723, 88 S. Ct. at
1321. This is also not a case where the government
did nothing to locate or keep in touch with a witness
for over five months. The Fifth Circuit’s decision
even pointed out “[t]he inevitable question of
precisely how much effort is required on the part of
the government to reach the level of a ‘good faith’
and ‘reasonable’ effort eludes absolute resolution

62a
applicable to all cases.” Tirado-Tirado, 563 F.3d at
123 (internal quotations marks omitted) (emphasis
added).
We agree with the Fifth Circuit that there is no
brightline standard applicable to all cases and the
facts of each case matter. 23 Reasonableness is a
highly fact-specific inquiry. Under the totality of the
unique factual circumstances of this case, we
conclude that the district court did not err in
admitting Vixama’s videotaped deposition. The
government made multiple good-faith efforts to
secure Vixama’s presence at trial and its efforts fell
within the permissible zone of reasonableness. We
are not persuaded by the dissent’s position to the
contrary.

23

The dissent charges that the majority opinion creates an
“unconstitutionally low (and unpredictable) bar for what
constitutes ‘reasonable’ effort to find a witness.” Dissenting Op.
at 65. Not so. For determining reasonableness, the majority
opinion eschews brightline rules and follows the fact-specific
and case-by-case approach for determining “reasonableness”
based on the totality of the circumstances, which is what the
Supreme Court has instructed us to do.
Although the dissent cites the circuit cases discussed in this
last section, the dissent reproves our summarizations of the
facts in Hardy, Roberts, and the above four sister circuit
decisions for spending “pages laboriously summarizing the cited
cases” and “for what seems like little purpose” to the dissent.
Dissenting Op. at 98 n.10. While the dissent prefers her
brightline rule, we explicate these decisions (cited in her
dissent) because they each exemplify the fact-specific and caseby-case approach to reasonableness followed by the Supreme
Court and other circuits.

63a
VII. CONCLUSION
For the foregoing reasons, we affirm Smith’s and
Delancy’s convictions.
AFFIRMED.

64a
ROSENBAUM, Circuit Judge, concurring in part and
dissenting in part:
Law enforcement had a fresh, promising lead for
finding Vanessa Armstrong Vixama—a crucial
witness. Vixama’s former attorney had informed the
government that Vixama was with her boyfriend in
Delaware. He also had given the government the
boyfriend’s name and phone number. A simple,
routine database search for the boyfriend’s address
stood a decent chance of leading the prosecution
straight to the boyfriend—and likely, to Vixama. But
the prosecution did not conduct a database search.
Nor did it attempt in any other way to find the
boyfriend. Instead, the prosecution, over a span of
days before trial, called the boyfriend once and sent
him a single text. When the boyfriend did not
respond, the prosecution did nothing more before
trial to reach him. Even after trial began, the
prosecution did nothing more than call the boyfriend
one more time. Though no one responded, the
government simply stopped looking for Vixama.1
The Sixth Amendment demands more from the
government. So does Supreme Court jurisprudence.
After all, Delancy’s and Smith’s Sixth Amendment
right to confront Vixama at trial was at stake.
1

Agents have many responsibilities, and I do not mean to
suggest that the agent here was lazy. Rather, it appears he did
not appreciate the scope of the efforts the Confrontation Clause
requires to present a vital witness’s live testimony, a
circumstance that is understandable, in view of our Circuit’s
lack of prior reason to opine on the subject. Nonetheless, this
circumstance does not make the government’s efforts any more
reasonable from a constitutional standpoint.

65a
Yet the prosecution asked the district court to
admit Vixama’s deposition testimony in lieu of her
in-person testimony—even though it did not
undertake reasonable, routine steps to follow up on
its fresh, promising lead for finding Vixama. In
support of its request, the government asserted that
it had undertaken “reasonable” efforts to find
Vixama and had failed, so Vixama was “unavailable”
for trial.
Today the Majority Opinion applies a subjective Iknow-it-when-I-see-it approach to uphold the
government’s lackluster efforts as reasonable and
deprive Smith and Delancy of their right to the
witness’s presence at trial. This ruling creates an
unconstitutionally low (and unpredictable) bar for
what constitutes “reasonable” effort to find a witness.
And in so doing, it incorrectly dismisses as
surplusage the Sixth Amendment’s independent
right to the witness’s presence at trial. I therefore
respectfully dissent from the Majority Opinion’s
decision to admit Vixama’s deposition testimony.2
I divide my discussion into four substantive
sections. Section I considers the Confrontation
Clause’s right to confront the witness. It explains
that when other reasonable and promising options
remain, the right’s “reasonableness” requirement
demands more than a couple calls and a text before a
2

Since the Majority Opinion affirms the district court’s
admission of Vixama’s deposition testimony, the conviction will
not be vacated, and the case will not be remanded on that basis.
Under those circumstances, I concur in the Majority Opinion’s
affirmance of the district court’s denial of a mistrial on the
basis of the prosecutor’s closing argument.

66a
witness may be declared unavailable and her
preserved testimony presented at trial. Section II
applies the proper standard to the facts here,
revealing the inadequacy of the government’s efforts.
Section III examines the errors in the Majority
Opinion’s analysis. And Section IV concludes that
the erroneous admission of Vixama’s preserved
testimony was not harmless error.
I.
The Sixth Amendment’s Confrontation Clause
provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right . . . to be confronted
with the witnesses against him.” U.S. Const. amend.
VI. The right to confront encapsulates two
independent rights: the right to cross-examine the
witness and the right to the witness’s appearance at
trial. See United States v. Crawford, 541 U.S. 36, 59
(2004) (“Testimonial statements of witnesses absent
from trial have been admitted only where the
declarant is unavailable, and only where the
defendant has had a prior opportunity to crossexamine.”).
These rights work in different ways to test the
witness’s truthfulness. The right to a witness’s live
testimony protects a defendant’s Sixth Amendment
rights in ways that a cross-examination conducted
outside the crucible of a trial cannot. By ensuring
that the witness is in the courtroom and testifying
under oath in front of the judge, the jury, and the
defendant, the Clause impresses upon the witness
the seriousness of the matter and discourages the
witness from lying—in a way that cross-examination
at a deposition does not. See California v. Green, 399

67a
U.S. 149, 158 (1970); see also Barber v. Page, 390
U.S. 719, 721 (1968) (explaining that, unlike crossexamination outside of trial, the presence of the
witness at trial compels the witness “to stand face to
face with the jury in order that they may look at him,
and judge by his demeanor upon the stand and the
manner in which he gives his testimony whether he
is worthy of belief”) (citation and internal quotation
marks omitted). Relatedly, when the witness is in
the courtroom, the jury can closely scrutinize the
witness’s demeanor and mannerisms in the judge’s
and jury’s presence to determine the witness’s
credibility. Ohio v. Roberts, 448 U.S. 56, 63-64
(1980), abrogated in part on other grounds by
Crawford, 541 U.S. at 60-69.
So consequential is the right to confront the
witness, the Supreme Court has expressed the view
that a failure to allow proper confrontation calls the
ultimate integrity of the fact-finding process into
question. Roberts, 448 U.S. at 64. The integrity of the
fact-finding process is at stake, of course, because the
Confrontation Clause is a procedural protection. See
Crawford, 541 U.S. at 61. So just as we cannot skip a
trial, even if we think a defendant is obviously guilty,
we cannot skip over the defendant’s right to a
witness’s presence at trial, even if we think the
witness’s prior recorded testimony is obviously
reliable. See id. at 62.
Of course, the right to a witness’s presence at trial
is not absolute. But given the significance of a
defendant’s constitutional right to confront the
witness at trial, we do not lightly cast away that
right. Before disposing of a defendant’s constitutional
right to confront a witness, we must be sure that two

68a
independent conditions have been met. The
defendant must have had an opportunity to crossexamine the witness, and the witness must be
“unavailable.” See Crawford, 541 U.S. at 59. So the
fact that a thorough cross-examination has occurred
is not enough to justify proceeding by recorded
testimony, without the witness at trial. Here, only
the availability of the witness is at issue.
A witness is “unavailable” when the government
cannot secure the witness’s presence at trial, despite
its good-faith, reasonable efforts. Roberts, 448 U.S. at
74. So what does that mean in practical terms?
Fortunately, we do not write on a blank slate as to
what constitutes reasonableness. The Supreme Court
has said that the government need not undertake
futile tasks. Id. So if no possibility of procuring a
witness exists—the example the Supreme Court used
for such a circumstance was when the witness died—
the government does not need to do anything. Id. On
the other hand, “if there is a possibility, albeit
remote,” that affirmative steps might produce the
witness, then the government may need to take those
steps. Id. In determining whether the government
must engage in actions falling into this category, the
Supreme Court has explained that “the possibility of
a refusal is not the equivalent of asking and
receiving a rebuff.” Id. at 76 (quoting Barber, 390
U.S. at 724).
In Hardy v. Cross, 565 U.S. 65 (2011), the Supreme
Court revealed a critical distillation of these
principles: under that case, the government must
follow up on current, promising leads to find a
witness, where reasonable methods to do so exist. In

69a
Hardy, the state introduced at trial the recorded
testimony of a witness who was missing at the time.
Id. at 68. Before the state court declared the witness
“unavailable” and allowed the use of her preserved
testimony, the prosecution did not contact the
witness’s boyfriend or any of her other friends in the
Chicago area at the time, nor did the prosecution
inquire at the cosmetology school where the witness
had once been enrolled, concerning the witness’s
whereabouts. Id. at 70-71. The defendant Cross was
convicted.
After exhausting his state appeals, Cross filed a
petition for a writ of habeas corpus under 28 U.S.C.
§ 2254. He argued that the state courts had
unreasonably applied Supreme Court precedent
concerning the Confrontation Clause’s unavailability
requirement. Id. at 69. The Supreme Court
ultimately disagreed, primarily because, under the
Antiterrorism and Effective Death Penalty Act’s
(“AEDPA”) standard of review, it concluded that the
state court’s decision was “reasonable,” so it deferred
to that determination. Id. at 72. Of course, we apply
a de novo standard of review here on direct appeal, in
contrast to the deferential standard that was
applicable in Hardy. But Hardy is nonetheless
instructive.
True, the Supreme Court held that the state court
had
acted
reasonably
in
denying
Cross’s
unavailability claim under the Confrontation Clause.
But its explanation for why provides the governing
principle. Concerning the state’s failure to contact
the missing witness’s boyfriend or any of her friends
in the area, the Supreme Court reasoned that none
of the victim’s “family members or any other persons

70a
interviewed by the State provided any reason to
believe that any of these individuals had information
about [the victim’s] whereabouts.” Id. at 71. As for
the state’s failure to make inquiries at the
cosmetology school where the witness had been
enrolled, the Supreme Court similarly explained that
the victim had not attended the school “for some
time,” so there was “no reason to believe that anyone
at the school had better information about [the
victim’s] location than did the members of her
family.” Id.
These explanations for denying Hardy’s claim
suggest that even when the government’s actions are
viewed through the highly deferential lens of
AEDPA, the government must still follow up on
leads if it has “reason to believe” those leads can
assist in locating the witness. (And actually, in
Hardy, when the witness’s mother told the
prosecution that the witness could be staying with an
ex-boyfriend in Waukegan, Illinois, the prosecution
followed up by visiting the Waukegan address and
speaking with the ex-boyfriend’s mother. Id. at 68.)
Here, though, a de novo standard governs. So the
government’s failure to undertake reasonable steps
to follow up on leads that provide “reason to believe”
they may succeed in locating a missing witness
certainly cannot satisfy the Sixth Amendment’s
reasonableness standard.
Yet today, the Majority Opinion allows exactly
that. To arrive at this mistaken conclusion, the
Majority Opinion completely fails to account for
Hardy’s reasoning. In fact, it does not even attempt
to show that Hardy does not suggest the government
must undertake reasonable steps to follow up on

71a
promising leads. 3 Instead, the Majority Opinion
dismisses my analysis of Hardy by simply reciting a
lengthy summary of Hardy’s facts—just to make two
points I readily agree with: that the government does
not need to take every step to secure a witness and
that reasonableness depends on the facts of the case.
Maj. Op. at 40-43. But significantly, nothing in these
two points contradicts the lesson Hardy’s logic and
context teaches: that “reasonable efforts” means the
government must take reasonable steps to follow up
on a promising lead.
II.
A.
In violation of Hardy’s lesson, the Majority Opinion
incorrectly excuses the government’s failure to
3

The Majority Opinion distorts my discussion of Hardy’s
lesson. As I explain, Hardy teaches that the government needs
to make reasonable efforts to follow up on promising leads.
The Majority Opinion instead claims that I assert a rule that
requires the government to take even unreasonable steps to
follow up on promising leads. Maj. Op. at 43-44 (claiming that
the dissent’s rule is “that the government does not make a goodfaith, reasonable effort as a matter of law unless it, in effect,
pursues each and every lead it has ‘reason to believe’ might
assist in locating a missing witness.” (emphasis added)). To be
clear, that is not correct. I am not suggesting that the
government needs to take unreasonable steps to pursue “each
and every” promising lead. Under Hardy, the government must
undertake only reasonable efforts—meaning reasonable tasks
under the circumstances—to pursue promising leads calculated
to find a missing witness. Indicators of reasonableness can
include, for example, cost, time requirement, and ease of task,
under the circumstances. So where a promising lead exists,
performing a free or inexpensive database search for an
address, which takes just minutes, is reasonable.

72a
undertake reasonable steps to follow up on leads that
provide “reason to believe” they may succeed in
finding a witness. To explain why the Majority
Opinion’s analysis cannot be correct, I first revisit
the key facts concerning the government’s search for
Vixama.
After immigration authorities accidentally let
Vixama go in the United States, the case agent
obtained Vixama’s uncle’s address and passed it
along to Immigration and Customs Enforcement
(“ICE”) Enforcement and Removal Operations
(“ERO”). Two weeks after it received that
information, ERO went to the uncle’s address to
search for Vixama but came up empty handed. ERO
said it “felt like they were getting the runaround”
from an occupant of the house, since the occupant
told ERO that she was not “sure” if Vixama was
living there.
It wasn’t until the next month, March, before the
case agent followed up with ERO for an update on
Vixama. At that point, ERO informed the case agent
that it was not going to look for Vixama again.
Despite this news, the government again waited
another month before acting.
Five days before trial, on April 12—the same day
the government advised the court at the calendar
call that it intended to introduce Vixama’s deposition
testimony at trial—the government emailed
Vixama’s former attorney to ask if he had Vixama’s
phone number or knew where she was residing. The
next day, Vixama’s attorney informed the
government that Vixama was in Delaware with her
boyfriend. In response to this information, the

73a
government simply emailed Vixama’s former
attorney a subpoena for Vixama, which the attorney
forwarded to Vixama’s boyfriend.
On April 15, the attorney provided the name and
phone number of Vixama’s boyfriend to the
government, advising that the government could
“call [Vixama] now at [the boyfriend’s] number” and
that he “believe[d] she w[ould] cooperate.” The
government quickly learned that was not to be the
case. When the agent called the boyfriend’s number
on April 15, no one answered, and no one returned
the call. The agent followed up with a text, which
also was not returned. That one call and one text
consisted of the totality of the government’s efforts to
reach Vixama’s boyfriend before trial.
The government knew what this meant. Indeed,
the government understood at least as early as the
very first day of trial—April 17—that Vixama was
not going to appear, since it advised the court that it
continued to consider her “unavailable” after having
previously indicated on April 12 that it intended to
use her deposition testimony.
Even after trial began, the government did nothing
more to reach the boyfriend than to try his number
one more time. As late as the fourth day of trial,
when asked whether the government had run the
boyfriend’s name through any database or had
otherwise made any attempt to find his address, the
case agent responded, “Not yet.”
B.
The government’s efforts to search for Vixama—a
witness crucial to the government’s case—suffer from

74a
serious shortcomings. I begin with the government’s
efforts during February and March 2017, the period
after the government learned that Vixama had been
released and before the government’s April pretrial
efforts. During this time, the government lost nearly
two months after ERO’s single, unsuccessful
February visit to the uncle’s residence, 4 doing
4

Given the difference in the prosecution’s and ERO’s
interests in finding Vixama, it is, at best, questionable whether
we should consider among the prosecution’s efforts to present
Vixama’s testimony at trial ERO’s limited efforts to locate
Vixama after she was released from custody. I certainly do not
suggest that Homeland Security Investigations could not elect
to have ERO find Vixama and deport her. And had it done so
successfully, there would have been no problem with having
Vixama declared unavailable. Nor, as the Majority Opinion
incorrectly asserts, do I suggest that “government agencies
cannot work together to accomplish a common goal.” Maj. Op.
at 49-50 n.17. Of course they should. And as I have noted, had
they succeeded and had ERO deported Vixama, Vixama would,
in fact, have been unavailable for Sixth Amendment purposes.
But that’s not what happened here. So we must evaluate the
efforts of the government to present Vixama at trial. And by
definition, Homeland Security Investigations’s efforts to have
ERO find Vixama were not efforts to obtain Vixama’s
appearance at trial. In cases where a witness is illegally present
in the United States, two agencies have different interests in
the witness: the agency prosecuting the case—be it Homeland
Security Investigations, the Federal Bureau of Investigation, or
any other federal agency—and ERO. The agency prosecuting
the case bears the responsibility of producing all necessary
government witnesses for trial—even if they are present in the
United States illegally. But ERO’s mission, in contrast, is to
enforce the immigration laws and deport illegal aliens once they
have been designated for deportation. The prosecuting agency
and ERO generally coordinate their efforts to avoid the
premature deportation of a necessary trial witness. But because
of the human cost of forcing material witnesses to suffer
detention, and because of the financial and physical burdens on

75a
nothing to look for Vixama. It could have followed up
with the uncle by sending an agent to the uncle’s
address to look again for Vixama and to question the
uncle. But it did not do so—even though as late as
within a week of the trial, the agent thought Vixama
was “perhaps” living at her uncle’s home in Coral
Springs. So the government had at least some reason
to believe it might find Vixama with her uncle.
The government’s stated reasons for its inaction
were insufficient under Supreme Court precedent.
According to the case agent, he declined to ask
another Homeland Security Investigations (“HSI”)
agent from an office closer to the uncle’s residence to
take a second look for Vixama at the uncle’s house
the government to detain innocent witnesses, ERO’s interest in
removal is sometimes prioritized over the prosecuting agency’s
interest in producing the witness at trial. See United States v.
Valenzuela-Bernal, 458 U.S. 858, 865 (1982) (explaining that
human costs and burdens on the government justify prompt
deportation of unnecessary witnesses).
If, however, as happened here, ERO is unwilling or unable to
perform its removal responsibility, that does not absolve the
prosecuting agency of its obligation to produce the witness for
trial. The Majority Opinion elides the distinctions between the
functions and responsibilities of the prosecuting agency, on the
one hand, and ERO, on the other, and, in assessing the
reasonableness of the government’s efforts to produce the
witness at trial, evaluates together ERO’s and the prosecuting
agency’s efforts to fulfill their conflicting functions. But ERO
does not engage in any affirmative efforts to make a witness
available for trial; just the opposite—it strives to deport a
witness designated for deportation. And if the witness has not
been deported and is present at the time of trial, the
prosecuting agency continues to bear responsibility for
producing that witness—regardless of whether the witness is
legally or illegally present in the United States.

76a
because he “could have been turned down.” But that
is just another way of saying those efforts could have
worked. And as I have noted, the Supreme Court has
held that “the possibility of a refusal is not the
equivalent of asking and receiving a rebuff.” Barber,
390 U.S. at 724.
The case agent also said he curtailed his efforts to
search for Vixama in part because he knew the
government already had what it needed from
Vixama: her deposition testimony. But the
government’s possession of recorded testimony
cannot relieve the government of its obligation,
under the Sixth Amendment right to the witness’s
presence, to engage in reasonable efforts to find the
witness who offered it. If it did, the Sixth
Amendment’s unavailability requirement would go
the way of the eight-track tape player because the
government’s mere possession of preserved
testimony would always end the government’s duties
to present the witness in person.
For this reason, it is not surprising that our sister
Circuits have described “a good measure of
reasonableness [as requiring] the State to make the
same sort of effort to locate and secure the witness
for trial that it would have made if it did not have
the prior testimony available.” 5 See, e.g., Cook v.

5

Under this test, the government’s view of the importance of
the witness and the seriousness of the crime necessarily
modulate the amount of effort the government will undertake to
find a given witness. Here, it is clear the government would
have tried harder to find Vixama if it had not had her
deposition testimony, since Vixama was critical to the case, see
infra at Section IV, and the agent admitted that he stopped

77a
McKune, 323 F.3d 825, 836 (10th Cir. 2003). 6 Yet
here, the agent conceded he ceased efforts to find
Vixama in significant part because the government
already had her recorded testimony. That admission
confirmed what the record already indicated: the
government stopped well short of the efforts it would
have undertaken to find Vixama—a witness even the
agent deemed “essential,” see also infra at Section
IV—in the absence of Vixama’s preserved testimony.
Nor did the government sufficiently step up its
efforts as trial loomed closer. Unlike in Hardy, where
nothing indicated that the witness’s boyfriend, any of
her friends in the Chicago area, or anyone at the
cosmetology school had knowledge of her
whereabouts, here, the government had good reason
to believe that Vixama was with her boyfriend. The
government also had the boyfriend’s name and phone
number. And while it’s great that the government
was able to secure some assistance from Vixama’s
trying to find her, in significant part, because the government
already had her recorded testimony.
6

See also McCandless v. Vaughn, 172 F.3d 255, 269 (3d Cir.
1999) (“If the prosecution had not had Barth’s preliminary
hearing testimony and had needed Barth’s presence at trial, we
are confident that the resources and effort devoted to finding
him prior to trial would have been greater than they in fact
were. To countenance such a disparity would ill serve the
interests protected by the Confrontation Clause.”); United
States v. Lynch, 499 F.2d 1011, 1023 (D.C. Cir. 1974) (“In the
ordinary case, [demonstrating that the government’s search
was “exercised both in good faith and with reasonable diligence
and care”] will require a search equally as vigorous as that
which the government would undertake to find a critical
witness if it has no preliminary hearing testimony to rely upon
in the event of ‘unavailability.’”).

78a
former attorney by emailing him, proper follow-up
also required performing routine and reasonable lawenforcement tasks pertaining to the name and
number of the boyfriend, so the government could
secure Vixama. 7 Under Hardy, the government
should have undertaken these reasonable efforts to
follow up on this promising lead.
But it did not. Rather than running a basic,
routine, quick, and inexpensive database search of
the boyfriend’s name to ascertain his address—or, for
that matter, trying to obtain the boyfriend’s address
in any manner—the government did no more than
just engage in minimal efforts to twice call and once
text the boyfriend. No evidence suggests the
government took even five minutes to check for the
boyfriend’s profile on Facebook, Twitter, or
Instagram, or to punch his name into Google to see
what those quick searches could dredge up.
Even when it became clear that the two calls and
single text were not going to cut it, the government

7

The Majority Opinion sets up a false choice between relying
on the former attorney to obtain Vixama’s appearance and
employing basic law-enforcement techniques to follow up on the
lead of the boyfriend’s name and number. See Maj. Op. at 50
(“Because it appeared that the boyfriend (and Vixama through
him) was cooperating with attorney Raben, it was reasonable
for the government to rely on attorney Raben to communicate
with him rather than to try to track the boyfriend down
independently through databases and try to persuade him to
help federal law enforcement take Vixama into ICE custody in
Delaware and transfer her to Miami for trial.” (emphasis
added)). Here, though, Hardy’s rule demanded the government
do both because both showed promise of obtaining Vixama’s
appearance, and both were reasonable

79a
still did nothing more. Instead, as late as the fourth
day of trial, the case agent conceded that the
government had “[n]ot yet” tried to find the
boyfriend’s address. With the constitutional rights of
two criminal defendants at stake, it is fair to wonder
what the government was waiting for. By
comparison, teens trying to reach their crushes do
more.
And here, Vixama was a crucial witness to the
government’s case. See infra at Section IV. Winning
at trial would have been extremely difficult without
her testimony. So we can be sure the government
would have engaged in routine, basic, and
inexpensive techniques to find Vixama if it had not
had her recorded testimony. See Cook, 323 F.3d at
836. Its decision not to do so only further reconfirms
the government’s failure to satisfy the Sixth
Amendment’s reasonableness standard.
Yet the Majority Opinion concludes the
government’s efforts were nonetheless reasonable. In
doing so, it relies on five of the reasons the case
agent identified for his decision not to engage in
further efforts to find the boyfriend: (1) he believed
Vixama had received a subpoena (through her
boyfriend); (2) he had attempted to contact her
boyfriend by phone and text; (3) Vixama was in the
country illegally; (4) a criminal action against
Vixama was not pending, so the agent could not take
her into criminal custody; and (5) ICE was the only
agency that could take Vixama into custody before
she failed to appear at trial. Maj. Op. at 52-53. In
fact, though, the agent also admitted a sixth—that
he did not think additional efforts were necessary,

80a
since the government
deposition testimony.

already

had

Vixama’s

None of these reasons—alone or together—suffice
to excuse the government from undertaking
reasonable and routine efforts to ascertain the
boyfriend’s address when the government had good
reason to believe that Vixama was with the
boyfriend.
I have already explained above why the existence
of Vixama’s deposition testimony could not relieve
the government of its obligation to engage in
reasonable efforts to find Vixama. See supra at 76-77
& n.6. I have likewise described why the agent’s two
unreturned calls and single text to the boyfriend did
not extinguish the government’s responsibility to
undertake reasonable efforts to find Vixama. See
supra at 77-78. Now I turn to the other four reasons
the government set forth.
First, the emailed subpoena forwarded by Vixama’s
former attorney to her boyfriend did not relieve the
government of its responsibility to engage in
additional reasonable efforts to find Vixama under
the circumstances here. Emailing a subpoena
through third parties is not “service” under the
Federal Rules of Criminal Procedure. See Fed. R.
Crim. P. 17(d). And while I do not argue Vixama did
not receive it, the subpoena did not have legal effect,
so the agent’s reliance solely on it was misplaced,
since it became obvious shortly after the subpoena
was sent that Vixama did not intend to honor it.
Importantly, though, that the government thought
the boyfriend would pass the subpoena to Vixama

81a
has tremendous relevance to the reasonableness
analysis; it underscores the fact that the government
had reason to believe—and did in fact believe—
Vixama was with the boyfriend in Delaware, as
Vixama’s former attorney had advised the
government. So the government also had reason to
believe that if it found the boyfriend, it would find
Vixama. And that required the government to
undertake reasonable efforts to try to find the
boyfriend.
Nor did Vixama’s illegal presence in the country
somehow absolve the government of satisfying the
constitutional requirement to undertake reasonable
efforts to find Vixama. If it did, then the
Confrontation Clause’s right to the witness’s
presence at trial would have a hole large enough to
drive a Bagger 2938 through whenever the witness
was illegally present in the United States at the time
of trial. Yet nothing in the Constitution or
Confrontation Clause jurisprudence supports the
notion that a defendant’s Sixth Amendment right to
the witness’s presence at trial depends upon the
witness’s immigration status.
The government’s excuses that no pending criminal
action allowed the agent to take Vixama into custody

8

The Bagger 293 is an excavating machine that is 315 feet
tall and 738 feet wide. Wayne Grayson, Meet the 31 millionpound bucket wheel excavator. The largest land vehicle ever
built, https://www.equipmentworld.com/video-meet-the-the-31million-pound-bucket-wheel-excavator-the-largest-land-vehicleever-built/ (last visited June 29, 2019). It weighs more than 31
million pounds. Id. Despite its size, the vehicle requires only
two people to operate it. Id.

82a
and that only a bench warrant would enable it to
produce Vixama fare no better. Even assuming,
arguendo, that no arrest warrant could be obtained,9
that circumstance would not justify the government’s
failure to produce Vixama. The government knew
since February 7, 2017, that Vixama was in the
country and had not been deported.
But it did not tell Smith and Delancy that for more
than two months. In fact, the government waited
until the first day of trial, April 17, to so inform
them, failing even to reveal it at the calendar call on
April 12. Instead, at the calendar call, without
advising the court or Smith and Delancy that
Vixama was still in the country, the government told
the court that it intended to introduce Vixama’s
videotaped deposition. The court asked Smith’s
attorney if he was objecting to the video deposition’s
admission, and Smith’s attorney, not knowing that

9

While I respect and do not second-guess the government’s
decision not to charge Vixama with a crime, it is not technically
accurate to suggest that the government had no option
available to it to obtain a warrant for Vixama’s arrest pretrial.
HSI could have obtained an arrest warrant for Vixama for
entering the United States illegally. See 8 U.S.C. § 1325(a)
(“Any alien who (1) enters . . . the United States at any time or
place other than as designated by immigration officers . . . shall,
for the first commission of any such offense, be fined under title
18 or imprisoned not more than 6 months, or both . . . .”).
Clearly, it had probable cause to do so. And had it obtained
such a warrant and arrested Vixama, it could have exercised
prosecutorial discretion to drop the charges and deport her
before trial with the consent of Smith and Delancy (in which
case, she would have been unavailable) or to have her testify
and then drop the charges and deport or release her.

83a
Vixama was in the country, answered, “Clearly not.
We’ve already had the opportunity to cross-examine.”
So when the government finally revealed Vixama’s
presence in the country on the first day of trial, it
was not surprising when Smith and Delancy
objected. As Smith’s attorney aptly put it, “[T]he
whole notion of her being unavailable was because it
was presumed that she would be deported and that
would make her beyond the jurisdiction of the United
States.”
Also on the first day of trial, the government told
the court that it had sent a subpoena to Vixama
through her former attorney to appear on the third
day of trial, even though the government expected
the trial to take only “[f]our to five days.” But almost
immediately after telling the court about the
subpoena, the government betrayed its doubt that
Vixama would comply with it, telling the Court, “At
this point we still consider her unavailable.” And no
wonder, since beginning on April 15, the agent had
called and sent a text to the boyfriend, and he had
received no response at all.
Of course, nothing prevented the government from
subpoenaing Vixama to appear on the first day of
trial and obtaining a bench warrant then if she did
not comply. At least that way, the government would
have had the remaining five trial days (counting
April 17) to execute the bench warrant. Instead,
however, the government kept Smith and Delancy in
the dark and unilaterally chose to limit itself to
obtaining a bench warrant only when, by its own
calculation, much of the trial would have already
concluded. So to the extent that a bench warrant was

84a
the only way for the government to compel Vixama’s
attendance and that there was insufficient time to
execute the warrant, the government put itself in
that position. It cannot therefore benefit from that
self-imposed disadvantage. And if the government
had no intention of following up on the bench
warrant in the first place, that it even sought one is
irrelevant to evaluating the reasonableness of the
government’s efforts.
Put simply, the government had reason to believe
that undertaking routine law-enforcement steps to
find Vixama by locating her boyfriend might well
succeed. No reason the government offered for failing
to take such steps undermines this fact. For this
reason, the government’s efforts to find Vixama were
not “reasonable” under the Sixth Amendment’s
unavailability standard as the Supreme Court has
construed it.
III.
The Majority Opinion protests that I ask too much
of the government. It throws a kitchen sink of
rationalizations in its attempt to justify the
government’s failure to conduct routine tasks that it
had reason to believe might locate Vixama.
Specifically, the Majority Opinion argues that (1) it
would be “Monday-morning quarterbacking” to
predict whether finding the boyfriend would have led
to Vixama, Maj. Op. at 44-45, 52; (2) the government
was “plainly reasonable” in asking ERO for help, id.
at 46-47; (3) it was reasonable for the government to
rely on the former attorney to obtain Vixama’s
presence at trial, rather than engaging in its own
efforts to find Vixama, id. at 49-50; (4) this dissent is

85a
internally inconsistent, id. at 51; (5) Vixama was
cross-examined, id. at 54; (6) Vixama had great
incentive not to be found, id. at 16, 31; and (7)
caselaw supports the conclusion that the
government’s efforts were reasonable. But even brief
consideration of these arguments—both alone and
together with each other—reveals the fallacy of
them.
(1) The Majority Opinion’s “Monday-morning
quarterbacking” criticism is riddled with
flaws, most notably because it shows the
Majority Opinion impermissibly shifted
the burden of proof onto Smith and
Delancy.
First, the Majority Opinion asserts that this
dissent engages in impermissible Monday-morning
quarterbacking. In doing so, the Majority Opinion
also raises questions about the efficacy of looking for
Vixama’s boyfriend. Maj. Op. at 44-45. This
argument suffers from four problems.
First, it impermissibly places the burden of proof
on Smith and Delancy. As the Majority Opinion
correctly notes, the government—not the defendant—
bears the burden of proof to show that it acted
reasonably. Maj. Op. at 23 (citing Roberts, 448 U.S.
at 74-75). And as the Majority Opinion further
correctly acknowledges, although we can always
think of more steps the government could have
taken, the government can neutralize any intimation
that reasonableness required those steps by showing
the “great improbability that such efforts would have
resulted in locating the witness.” Maj. Op. at 30
(quoting Roberts, 448 U.S. at 75-76). So Smith and

86a
Delancy were not required to show that the boyfriend
was a promising lead; rather, the government bore
the burden of proving that finding the boyfriend was
unlikely to lead to Vixama.
Yet the Majority Opinion ignores these rules and
improperly places the burden of proof on Smith and
Delancy, to show that Vixama would have been
found if law enforcement had adequately followed up
with the boyfriend. For example, the Majority
Opinion criticizes this dissent for “surmis[ing] that
if the government had used databases, it might have
found an address for the boyfriend in Delaware, and
then it might have found Vixama.” Maj. Op. at 44
(bold added; italics in original).
Here, though, the government, which has the
burden of proof, never gave any reason to doubt the
efficacy of a database search. Just the opposite.
When asked whether it had used databases to search
for the boyfriend’s address, the government’s
response was “[n]ot yet,” suggesting the potential
usefulness of the technique.
Nor did the government give any reason to doubt
that Vixama was with her boyfriend. In fact,
Vixama’s former attorney told the government she
was, and the government even sent a subpoena to
the boyfriend so Vixama would see it. Only the
Majority Opinion manufactures doubt about the
likelihood and effectiveness of finding the boyfriend.
Then it improperly thrusts the burden of allaying
that doubt on Delancy and Smith.
And the burden the Majority Opinion wrongly
saddles Smith and Delancy with is also an

87a
impossible one for them: law enforcement has unique
access to tools and resources that are not available to
Smith and Delancy. For that reason, only law
enforcement can make the showing the Majority
Opinion demands. Smith and Delancy cannot, for
example, use law-enforcement databases to search
for Vixama’s boyfriend’s address. So they have no
way of removing the doubt the Majority Opinion
creates about the efficacy of a database search.
Ultimately, the Majority Opinion invents a problem
the government never raised and drowns Smith and
Delancy in an impossible burden that is not theirs.
Second, the Majority Opinion’s argument depends
in part on illogical reasoning. The Majority Opinion
inexplicably concludes that because “efforts [to find
Vixama] had already failed in Florida,” they would
also necessarily fail in Delaware. Maj. Op. at 47-48.
This is irrational. First, if Vixama was not in South
Florida, she was obviously somewhere else, and that
somewhere else could have included Delaware. And
second, more significantly, unlike the outdated
information concerning whether Vixama was at the
uncle’s address, the government had current
information from Vixama’s former attorney that
Vixama was in Delaware with the boyfriend. To
suggest that one failure necessarily means failure
forever—regardless of the different circumstances—
is like assuming 7-Eleven won’t have Snickers bars
just because the library doesn’t.
Third, in support of its argument, the Majority
Opinion opines that following up with the boyfriend
would have been a difficult and involved process. See
Maj. Op. at 48-49. Not so. No matter how much the
Majority Opinion draws out and exaggerates the

88a
steps it would have taken for law enforcement to look
up the boyfriend’s address and follow up with him,
the reality is that this is a routine and feasible
technique that law enforcement uses all the time—
analogous, as the Majority Opinion recognized, to
looking up and going to Vixama’s uncle’s address
(which was one of the very first things law
enforcement did in this case).
Fourth, as for the concept of “Monday-morning
quarterbacking,” I agree that a court, with the
benefit of hindsight, should not be unreasonably
demanding. Maj. Op. at 44-45. I likewise agree that
the “Sixth Amendment does not require the
prosecution to exhaust every possible means of
producing a witness at trial.” Maj. Op. at 52. But our
aversion against Monday-morning quarterbacking
does not mean that we never review what the
government did. And that the Sixth Amendment
does not require the prosecution to take every
conceivable step to find a witness is not a talismanic
phrase to excuse inadequate efforts. Those two points
carry weight only when it is unreasonable to demand
more of the government.
Here, the government presented Vixama’s recorded
testimony in a trial that carried potential maximum
sentences of decades in prison for Smith and
Delancy. But the government’s efforts to follow up on
a fresh, promising opportunity to secure the
defendants’ Sixth Amendment right to the witness’s
presence at trial essentially consisted of only two
calls and a text—even though other reasonable
means to find the boyfriend were readily available
and inexpensive to undertake. The Sixth
Amendment demands more.

89a
(2) That
it
was
reasonable
for
the
prosecution to ask ERO for help does not
excuse the prosecution’s failure to take
other reasonable steps to find Vixama.
Moving on to the Majority Opinion’s second
justification for why the government’s efforts here
were reasonable, the Majority Opinion says that the
government was “plainly reasonable” in asking ERO
for help. Maj. Op. at 46. I don’t disagree. But taking
one reasonable step is not enough when that step
fails and other reasonable avenues for finding the
witness emerge. Here, the case agent’s reasons for
not doing more once he learned that ERO was not
going to look for Vixama—because the government
already had her deposition testimony and because he
thought he “could have been turned down” had he
asked for help—were not reasonable. So the
government’s request for ERO’s assistance did not
relieve the government of its obligation through the
end of the trial in April to engage in additional
efforts to find Vixama when ERO came up short in
February.
(3) That the government initially hoped
Vixama’s former attorney could produce
Vixama does not mean that, when that
hope dissipated, the government could
decline to take reasonable steps to follow
up on a promising lead.
As its third rationale, the Majority Opinion asserts
that “[b]ecause it appeared that the boyfriend (and
Vixama through him) was cooperating with attorney
Raben, it was reasonable for the government to rely
on attorney Raben to communicate with him rather

90a
than to try to track the boyfriend down
independently through databases.” Maj. Op. at 50. I
agree that the government was right to contact
Vixama’s former attorney. But when it became clear
that the government’s earlier communications with
the attorney were unlikely by themselves to result in
Vixama’s presence at trial, and other promising leads
for finding Vixama remained, the government did
not have the discretion under the Sixth Amendment
to refuse to engage in reasonable efforts to locate
Vixama just because it had previously contacted her
former attorney.
The government knew very quickly that it was not
reasonable to assume, based solely on its
communications with the attorney, that Vixama
would show up for trial; from the very beginning, the
boyfriend had not responded to the government.
That’s why the government noted on the very first
day of trial that it anticipated Vixama would be
“unavailable”—just two days after the attorney gave
the government the boyfriend’s phone number. If the
government
thought
the
attorney’s
earlier
communications with Vixama would yield her
appearance at trial, it obviously would not have
made this announcement.
Despite the government’s knowledge that Vixama
probably would not comply with the subpoena, it did
no more before trial than once call and once text
Vixama’s boyfriend—its current, promising lead. It
declined to take basic, inexpensive, and obvious lawenforcement steps like running a database search.
And when, just as the government had anticipated,
Vixama indeed failed to appear, the government did

91a
almost nothing to try to execute the bench warrant it
obtained for her.
So while the Majority Opinion is right that it was
reasonable for the government to initially rely on
Vixama’s former attorney, that did not excuse the
government’s subsequent unreasonable lack of
action.
(4) It is logical to conclude that Vixama’s
boyfriend was such an important lead
that, to adequately follow up with him,
the government should have done more
than just ask someone to forward a
subpoena to him.
Fourth, contrary to the Majority Opinion’s
suggestion, it is not internally inconsistent for this
dissent to emphasize the need to adequately follow
up with Vixama’s boyfriend while also asserting that
the government’s efforts in sending the subpoena to
the boyfriend through Vixama’s former attorney
were insufficient under the circumstances. Maj. Op.
at 51. To be sure, as I have noted, the government
was right to try to find Vixama through her former
attorney and even to try to send her a subpoena in
that way.
But when that effort failed to yield Vixama’s
cooperation, the government could not just rest on its
laurels. Rather, as I have explained, the government
believed the boyfriend provided Vixama with the
subpoena because it believed Vixama was with the
boyfriend. As a result, the government had reason to
believe that if it found the boyfriend, it would find
Vixama. And that required the government to

92a
engage in reasonable efforts to find the boyfriend.
See supra at 81.
(5) How robust a previous cross-examination
is and what state of mind the parties had
during
that
cross-examination
are
irrelevant to determining unavailability.
Fifth, while paying lip service to the notion that
“[f]or sure, the defendants have not waived their
Confrontation Clause claims,” the Majority Opinion
wrongly dismisses the unavailability requirement’s
independent importance, stressing that defense
counsel “cross-examined Vixama as if she were
testifying at trial because everyone assumed this
would be her testimony at trial,” and that this fact is
“relevant and important” in assessing the
reasonableness of the government’s actions. Maj. Op.
at 54. This justification for excusing the
government’s less-than-reasonable efforts to find
Vixama misses the point of the Confrontation
Clause’s independent right to the witness’s
presence—a right that is separate from the right to
cross-examination. See supra at 66-67. If robust
cross-examination were enough to excuse the
government from engaging in reasonable efforts to
present a witness at trial, the Supreme Court would
not have explained that admission of recorded
testimony
requires
two
separate
showings:
unavailability and cross-examination. See Crawford,
541 U.S. at 59.
The Majority Opinion’s reliance on crossexamination to lower the reasonableness bar of the
Sixth Amendment’s right to the witness’s presence at
trial impermissibly conflates these requirements. It

93a
fails to recognize that the witness’s live testimony at
trial serves purposes that cross-examination alone
simply cannot. Perhaps for this reason, the Supreme
Court has never excused the government from
undertaking reasonable efforts to find a missing
witness simply because the preserved testimony
included thorough cross-examination. Nor does the
Majority Opinion point to a single case where any
other court has concluded that thorough crossexamination can somehow relieve the government of
its obligation under the Sixth Amendment to engage
in reasonable efforts to find a witness before it may
present that witness’s recorded testimony.
(6) That a witness may not want to be found
does not relieve the government of its
responsibility to take reasonable actions
to find the witness.
Sixth, the Majority Opinion repeatedly emphasizes
that Vixama “was in hiding, and had a strong
incentive not to be found.” Maj. Op. at 16, 31. But
evasiveness is not unavailability, and law
enforcement cannot create a self-fulfilling prophecy
by abbreviating search efforts just because the
witness does not want to be found. See Lynch, 499
F.2d at 1024 (“We are not prepared to equate
‘unavailability’ with ‘evasiveness.’ The government
failed to establish that [the witness] could not have
been located and brought to trial by a reasonably
diligent search. Accordingly we hold that the witness
was not ‘unavailable’ . . . .”). Many witnesses would
prefer not to be hauled into court. That’s often the
very reason why the government must undertake
efforts to find them in the first place. So allowing a

94a
witness’s evasiveness to excuse unreasonable
government efforts to find that witness would
essentially render meaningless the Confrontation
Clause’s unavailability requirement.
(7) The Majority Opinion’s ruling
squarely against the caselaw.

runs

Finally, the Majority Opinion suggests that
caselaw supports the conclusion that the
government’s efforts here were “reasonable.” Most
respectfully, I disagree. The Majority Opinion’s
caselaw errors fall into three categories: (1) it does
not heed the lessons of Hardy and Roberts; (2) it does
not account for important Sixth Amendment-specific
caselaw on “reasonableness;” and (3) it mistakenly
concludes that United States v. Tirado-Tirado, 563
F.3d 117 (5th Cir. 2009), bolsters the determination
that the government’s efforts here were “reasonable.”
I address each error in turn below.
First, the Majority Opinion repeatedly relies on
Hardy for the proposition that “the Sixth
Amendment does not require the prosecution to
exhaust every avenue of inquiry, no matter how
unpromising.” Maj. Op. at 23-24, 43 (quoting Hardy,
565 U.S. at 71-72). I take no issue with Hardy’s
statement in that regard. But as I have explained,
that is not the beginning and end of Hardy’s
significance. As expressed in its reasoning and
alluded to in the last phrase of the sentence quoted
above, Hardy teaches that the government must
undertake reasonable efforts to follow up on leads it
does have “reason to believe” might be fruitful in
locating a missing witness. See Hardy, 565 U.S. at
71-72; see also supra at 69-71.

95a
Roberts supports this same lesson. There, about a
year before the trial, the missing witness’s parents
were able to reach the witness through information a
social worker in San Francisco had provided, since at
the time, the social worker was in communication
with the parents about a welfare application the
witness had filed. Roberts, 448 U.S. at 60. After that
time, though, the witness had called her parents only
once and had not been in touch with her siblings. Id.
During that last phone call, which occurred about
seven or eight months before trial, the witness told
her parents that she “was traveling” outside Ohio,
but she did not advise them of where she was. Id.
The witness’s mother attested that she knew of no
way to reach the witness, even in case of emergency,
and that she did not “know of anybody who knows
where she is.” Id. (citation and quotation marks
omitted).
As for the government’s efforts to find the missing
witness, it contacted the mother four months before
trial and sent five subpoenas over time to the
witness at the parents’ address. Id. at 75. The
government further noted that the witness’s parents
had “not been able to locate her for over a year.” Id.
Based on these facts, the trial court declared the
witness unavailable and admitted the witness’s prior
testimony. Id. at 59. The defendant was convicted
and appealed, asserting that the use of the prior
testimony violated his Sixth Amendment rights. Id.
The Supreme Court agreed with the trial court’s
decision. Id. at 76. In reaching this conclusion,
significantly, the Supreme Court explained that “the
great improbability that [additional] efforts would

96a
have resulted in locating the witness, and would
have led to her production at trial, neutralizes any
intimation that a concept of reasonableness required
their execution.” Id. Immediately following that
statement, the Court reaffirmed the “general rule”
that “the possibility of a refusal is not the equivalent
of asking and receiving a rebuff.” Id. (citation and
quotation marks omitted). In other words, under the
particular circumstances in Roberts, there was no
reason to believe that additional efforts would have
located the witness. But when reason to believe
additional reasonable efforts may be successful
exists, the government must engage in those efforts.
The Majority Opinion completely misses this lesson
from Hardy and Roberts. Instead, it inaccurately
accuses this dissent of cherry-picking phrases out of
context. Compare Maj. Op. at 38 (accusing this
dissent of cherry-picking phrases out of context),
with supra at 69-71 (explaining relevant facts in
Hardy), and supra at 95-96 (explaining relevant facts
in Roberts). Then the Majority Opinion singlemindedly focuses on articulating undisputed points,
entirely failing to analyze the important principles of
the cases. For example, the Majority Opinion notes
that in Hardy, the Supreme Court excused the
prosecution’s failure to reach out to the missing
witness’s boyfriend or the cosmetology school where
she had been enrolled because there was no “reason
to believe” those leads would have been fruitful. Maj.
Op. at 43 (quoting Hardy, 565 U.S. at 71). But
remarkably, the Majority Opinion then fails to
engage with the fact that, in this case, there was
reason to believe that Vixama was with her
boyfriend.

97a
Similarly, the Majority Opinion explains that in
Roberts, the trail had effectively gone cold for the
missing witness: the government’s most recent
information about the witness’s whereabouts was
seven-to-eight months old, and the government knew
only generally that the witness was, at that time,
traveling outside Ohio. Maj. Op. at 38-39. That’s why
the Supreme Court opined that it was “great[ly]
improbab[le]” that further government efforts would
yield the missing witness.
Again, though, the Majority Opinion fails to
register the significance in Smith and Delancy’s case
that it was not “great[ly] improbab[le]” that
additional government efforts would be useful. As I
have noted, the government here believed—and had
good reason to believe—based on Vixama’s former
attorney’s representations, that Vixama was
physically present with the boyfriend in Delaware.
Had the Majority Opinion actually applied the
reasoning of Hardy and Roberts here, it necessarily
would have reached the conclusion that the
government did not undertake reasonable efforts to
follow up on the promising lead that was Vixama’s
boyfriend.10
10

Hardy and Roberts are not the only cases the Majority
Opinion summarizes for what seems like little purpose. In a
single sentence and a footnote consisting of citations, this
dissent relies on precedent from our sister Circuits for the point
that other courts have looked, as a measure of reasonableness,
to whether the prosecution’s efforts match those it would have
undertaken had it lacked the missing witness’s testimony. See
supra at 76-77 & n.6. In response, the Majority Opinion spends
pages laboriously summarizing the cited cases. Maj. Op. at 5560. When the dust settles, though, the Majority Opinion does

98a
The Majority Opinion makes its second significant
mistake relating to caselaw when it does not account
for important Sixth Amendment-specific caselaw on
“reasonableness.” In explaining the “reasonableness”
standard, the Majority Opinion relies heavily on
Fourth Amendment jurisprudence. See Maj. Op. at
25-26 & n.7 (citing United States v. Banks, 540 U.S.
31, 36 (2003); Ohio v. Robinette, 519 U.S. 33, 39
(1996); Ker v. California, 374 U.S. 23, 33 (1963);
United States v. Arvizu, 534 U.S. 266, 273-74 (2002);
Missouri v. McNeely, 569 U.S. 141, 150 (2013);
Stephens v. DeGiovanni, 852 F.3d 1298, 1315 (11th
Cir. 2017); Rodriguez v. Farrell, 280 F.3d 1341, 134647 (11th Cir. 2002)).11 And while Fourth Amendment
caselaw can be helpful to understanding the meaning
of “reasonableness,” Sixth Amendment jurisprudence
has put its own unique twist on the “reasonableness”
inquiry—a
twist
that
Fourth
Amendment
jurisprudence does not account for.
For example, significantly, the Supreme Court has
explained that, in the Confrontation Clause context,
the Framers “were loath to leave too much discretion
in judicial hands” and that “open-ended balancing
tests” are disfavored because “[v]ague standards are
manipulable.” Crawford, 541 U.S. at 67-68. So it is
not surprising that Sixth Amendment jurisprudence
provides guidelines—like the government need not
engage in futile search efforts; it may need to
not contest the point of citing the cases in the first place: that a
factor courts can consider is whether the government tried as
hard to look for the missing witness as it would have if it did
not already possess what it needed from that witness.
11

All of these cases concern the Fourth Amendment.

99a
perform actions that have a possibility of finding a
witness; and it must perform reasonable tasks that it
has reason to believe might be successful—that
assist us in determining whether law enforcement’s
efforts were “reasonable.” See, e.g., Roberts, 448 U.S.
at 74; Hardy, 565 U.S. at 71.
To be sure, the Majority Opinion mentions the
cases that give us these rules. But it ignores the
Sixth Amendment-specific instruction to avoid “openended balancing tests.” Instead, the Majority
Opinion relies on Fourth Amendment law to justify
its touchy-feely, I-know-it-when-I-see-it approach to
determining whether the government’s efforts to find
a witness were reasonable. And as I have noted, even
when the Majority Opinion pays lip service to the
Sixth Amendment-specific rules on reasonableness,
it ignores many of the rules most important to this
case. As a result, the Majority Opinion fails to
recognize the insufficiency of the government’s
actions here.
Finally, the Majority Opinion makes a third
caselaw-related mistake when it asserts that TiradoTirado “demonstrates why the government has
shown a good-faith, reasonable effort here.” See Maj.
Op. at 60. In fact, Tirado-Tirado compels the
opposite conclusion—that the government’s actions
here did not satisfy its reasonableness obligation.
The Majority Opinion’s view to the contrary results
from two errors.
First, the Majority Opinion notes that the TiradoTirado witness’s deposition was taken “only as a
precaution” because the government expected the
witness to return to the United States to testify at

100a
trial. Id. at 61. But to the extent this discussion
suggests that the reason it was wrong in TiradoTirado to present the missing witness’s testimony
was because Tirado-Tirado may have foregone more
rigorous cross-examination of the witness in
anticipation that the witness would appear again at
trial, Tirado-Tirado expressly nixed that idea.
Tirado-Tirado explained that the use of the
deposition testimony at trial violated the
Confrontation Clause “not because Tirado-Tirado did
not have a full and fair opportunity to cross examine
[the witness]”—indeed, the Fifth Circuit found he
did—but because “[the witness] was not ‘unavailable’
for trial.” Tirado-Tirado, 563 F.3d at 125-26. As I
have noted, the right to the witness’s presence at
trial and the right to cross-examination are distinct
rights that protect the defendant in different ways.
See supra at 66-67. Once again, the Majority Opinion
improperly conflates these rights.
Second, the Majority Opinion tries to distinguish
Tirado-Tirado, emphasizing that “in Tirado-Tirado,
the government ‘made no effort’ whatsoever to keep
in touch with the alien witness” until about eight
days before trial. Maj. Op. at 61 (citing TiradoTirado, 563 F.3d at 125). But what we have here, the
Majority Opinion asserts, “is not a case in which the
government ‘made absolutely no effort’ to locate
Vixama and obtain her presence at trial.” Id. at 62.
These statements are true, as far as they go. But
they are misleadingly incomplete, since the Majority
Opinion focuses on only the government’s efforts in
the months before trial and glosses over the
comparison of the government’s efforts in each case
in the several days immediately prior to trial.

101a
In Tirado-Tirado, as the Majority Opinion notes,
the government took no action to remain in contact
with the witness in Mexico for five months, waiting
until eight days before trial to act. Tirado-Tirado,
563 F.3d at 124. And as the Majority Opinion
correctly notes, the government here did undertake
some action in the two months prior to its lastminute activities five days before trial—it asked
ERO to go to the uncle’s house. So yes, we have this
modest distinction.
But in the eight days before trial, when the
government finally began its efforts to obtain the
witness’s presence at trial in Tirado-Tirado, the
government sent the witness a letter with explicit
instructions concerning arrangements for the
witness to testify and be reimbursed; spoke to the
witness’s brother about the witness’s attendance;
obtained the name and telephone number of TiradoTirado’s common-law wife in the United States;
examined the call log of Tirado-Tirado’s seized phone
for calls to the witness; subpoenaed Western Union
for transactions made in Tirado-Tirado’s name that
could relate to the witness, after discovering in
Tirado-Tirado’s phone log a call made to Western
Union; and reviewed immigration and criminal
records for the witness—all in an effort to find the
witness. Id. at 120. Even after doing all this, when
the government could not come up with the witness,
the Tirado-Tirado Court decided that the
government had not done enough overall. Id. at 125.
Here, in contrast, the government did little to
follow up on the leads it had: it did not revisit the
uncle’s home, even though the agent believed as late
as within a week of trial that Vixama was “perhaps”

102a
there; it did not run Vixama’s boyfriend’s name or
number through any database; and it did not
attempt to send an agent to find Vixama’s boyfriend,
even though doing any—or all—of these things to
follow up on fresh leads would not have required
significant government resources.
Thus, the real distinguishing feature between
Tirado-Tirado and this case is how much more
overall the government did in Tirado-Tirado to
locate a witness outside the country than it did in
this case to locate one inside the country—a
distinction that especially dooms the sufficiency of
the government’s efforts here.12
IV.
Since the government’s efforts here were
unreasonable and Vixama’s testimony should not
have been admitted, we must consider whether
admitting Vixama’s deposition testimony was
harmless error. Delaware v. Van Arsdall, 475 U.S.
673, 684 (1986). A Confrontation Clause violation is
12

When a foreign-national witness is happily located outside
the United States, the United States generally has no options to
obtain that witness’s appearance at trial other than a request to
appear with a promise to pay for travel. But when a witness is
physically present in the United States, the government has
various law-enforcement options available to it to produce the
witness at trial. For this reason, and as the Majority Opinion
recognizes, cases involving foreign-national witnesses happily
residing outside the United States—such as United States v.
Siddiqui, 235 F.3d 1318 (11th Cir. 2000), discussed by the
Majority Opinion at 24 & n.6—are not helpful in identifying the
types of steps the government must engage in to satisfy the
unavailability requirement when the witness is physically
located here.

103a
harmless only if we can say beyond a reasonable
doubt that the error did not contribute to the verdict.
United States v. Gari, 572 F.3d 1352, 1362 (11th Cir.
2009). In contemplating this issue, we consider the
importance of the witness’s testimony, whether the
testimony
is
cumulative,
whether
evidence
corroborates or contradicts the testimony, the extent
of cross-examination permitted, and the overall
strength of the prosecution’s case. Van Arsdall, 475
U.S. at 684. We ask whether the average juror would
find the prosecution’s case less persuasive without
the erroneously admitted testimony. Gari, 572 F.3d
at 1363.
Here, the admission of the deposition testimony
was not harmless. Even the Majority Opinion does
not argue that it was.
Indeed, although the Majority Opinion asserts that
“there was compelling evidence that the defendants’
boat was headed to the United States,” Maj. Op. at
58, conspicuously absent from that Opinion is an
alternative holding that even if the district court
erred in admitting Vixama’s testimony, the error was
harmless. And for good reason: Vixama’s testimony
provided the clearest, non-circumstantial evidence
that the boat was bound for the United States.
Specifically, she testified in her deposition that her
mother’s friend had arranged for her to be smuggled
into Miami for $5,000 and that she understood the
boat was going from Freeport directly to Miami.
Aside from the unclear and confusing deposition
testimony of Davidson Francois, another material
witness, the government presented no other direct
evidence that the boat’s intended destination was the

104a
United States.13 Rather, the other evidence on which
the government relied for this necessary element of
the crime was entirely circumstantial: that the
migrants were told to turn off their cell phones for
the trip and to not wave down other vessels once
their boat stalled; that none aboard were legally
authorized to be in the United States and lacked
identification
documents;
and
that
Smith’s
explanation for the boat’s track did not make sense.
Certainly, these facts are more than sufficient to
suggest an illegal operation and even a humansmuggling scheme. But they do not demand or even
reasonably support the inference that the boat was
United States-bound. Even the case agent agreed in
his testimony that Vixama was an “essential”
witness. Particularly in view of where the boat was
intercepted, I cannot conclude beyond a reasonable
doubt that Vixama’s testimony did not contribute to
the jury’s conclusion that the boat was headed for the
United States. As a result, the Confrontation Clause
violation was not harmless and requires vacatur of
the judgment and remand.
V.
To protect Smith’s and Delancy’s Sixth Amendment
right to confront Vixama, the government was
required to engage in reasonable efforts to produce
Vixama at trial. But the government failed to do so.
Among other deficiencies, though the government
13

At some points in his deposition, Francois seemed to
suggest that he was heading to the United States, but
Francois’s testimony was unclear at best. Significantly, as the
Majority Opinion notes, he also testified that he did not
personally know where the boat was going. Maj. Op. at 5-6.

105a
had good reason to believe that Vixama was
physically present with her boyfriend, it did almost
nothing to locate the boyfriend—even though it had
the boyfriend’s phone number and knew he lived in
Delaware. Following up on the boyfriend’s location
would have involved routine, inexpensive lawenforcement techniques such as searching databases
or running basic internet searches and sending an
agent out to follow up on any resulting leads.
Because the government did not engage in these
standard and reasonable efforts to follow up on its
promising lead, it did not satisfy the Sixth
Amendment’s unavailability requirement before
presenting Vixama’s recorded testimony. As a result,
Smith’s and Delancy’s Sixth Amendment right to the
witness’s presence was violated. And since that was
not harmless error on this record, the judgment
should be vacated and the case remanded. I therefore
respectfully dissent.

106a
APPENDIX B
_________
UNITED STATES DISTRICT COURT,
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
_________
Case No. 16-20908-CRIMINAL-LENARD
_________
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RICHARD DELANCY and RENADO SMITH,
Defendants.
_________
Miami, Florida
April 20, 2017
9:39 a.m. to 2:00 p.m.
_________
JURY TRIAL
BEFORE THE HONORABLE JOAN A. LENARD,
UNITED STATES DISTRICT JUDGE

APPEARANCES:
FOR THE GOVERNMENT:
EMILY ROSE, ESQ.
KURT LUNKENHEIMER, ESQ.
ASSISTANT UNITED STATES ATTORNEYS
99 Northeast Fourth Street
Miami, Florida 33132

107a
FOR THE DEFENDANT DELANCY:
DANIEL ECARIUS, ESQ.
ASSISTANT FEDERAL PUBLIC DEFENDER
150 West Flagler Street
Miami, Florida 33130
FOR THE DEFENDANT SMITH:
ALBERT Z. LEVIN, ESQ.
ALBERT Z. LEVIN, P.A.
40 Northwest Third Street
Miami, Florida 33128
_________
PROCEEDINGS
***
[District Court’s ruling on admissibility,
pp. 101:5-108:9]
***
THE COURT:
At this time I’m going to find that
the witness, Vanessa Armstrong Vixama, is
unavailable for confrontation clause purposes, as the
prosecutorial authorities have made a good-faith
effort to obtain her presence at trial.
I do not find that the efforts made by the
Government are merely perfunctory, as they were -the Fifth Circuit found in United States versus
Tirado-Tirado at 563 F.3d 1117.
I find that the Government’s efforts, based upon
the credible testimony of the agent, was reasonable
under the totality of circumstances of this case in
that the Government obtained a material witness

108a
detention order for the purposes of taking her
deposition and, upon the taking of her deposition, in
which both Defendants and their counsel were
present and had an opportunity to cross-examine the
witness, the material witness order was dismissed on
February 3rd, which is a Friday. She was then
released on Monday.
The CFR under which the release is ordered, 8,
CFR, 287.7, requires an alien be detained for a
period not to exceed 48 hours, excluding Saturdays,
Sundays and federal holidays. So it looks like the US
Marshals counted Saturday and Sunday.
I don’t know the time. It’s not been provided to me,
the time that the order was issued on February 3rd,
nor the time of release. It would have had to have
been early, early in the morning on Friday and late,
late, late, almost to midnight, I believe, for the 48
hours.
So that’s one point.
The agent testified that he found out on February
7th. He got an email by the ERO and he followed up
and they went out to the uncle’s house, which was a
phone number given by the witness so that she could
contact someone, a relative here in the States.
They went out on February 21st and were unable,
after searching the residence and not getting great
cooperation, to -- for further information from the
uncle.
The agent testified that he then followed up with a
supervisor and was told that ERO didn’t have the
resources or manpower to locate her.

109a
The Eleventh Circuit found in United States versus
Smith, 213 Fed.Appx. 774, a 2006 decision -- as part
of their analysis, the Eleventh Circuit found that
they were not in the position to second-guess DHS’s
refusal to release a convicted drug trafficker into the
community.
And that was on the basis of failing to reach an
agreement with DHS to parole -- a parole release for
trial.
MR. ECARIUS: Could you repeat that cite, your
Honor.
THE COURT:

213 Fed.Appx. 774.

MR. ECARIUS: Thank you.
THE COURT:

A 2006 decision.

There was a sworn video deposition taken.
There were other reasons that the Eleventh Circuit
found, including continuances by the Defendant. But
the Eleventh Circuit did indicate that they would not
second-guess a decision made by DHS in their
refusal to release the witness who had given a
deposition.
So here the agent, after speaking to a supervisor
and being told by the supervisor that ERO just didn’t
have the resources or manpower to -- after going to
the uncle’s house at the direction of the agent, they
didn’t have the resources or manpower to locate her.
Under 3144, Judge Goodman had already released
the material witness detainer after the deposition
had been taken. And even if they had issued -- as Mr.
Lunkenheimer argued, even if they had issued a trial

110a
subpoena for the start of trial, no warrant could have
been issued until such time as she didn’t appear for
trial.
And the start of this trial was Monday of this week,
which was April 17th. The warrant was issued on the
19th. Correct?
MR. LUNKENHEIMER:

Yes, your Honor.

THE COURT:
And then, once the issue arose, I
believe, on the first day of trial, Ms. Rose made the
Court aware of the issue regarding Ms. Vixama.
And then the Government made further efforts
with the attorney who represented her for the
material witness detainer, who -- while he said he
hadn’t heard from her since her release, he
apparently had a way of getting in contact with her.
He indicated he gave the information to the
boyfriend, told her to call the agent and conveyed the
numbers.
So I find that this is distinguished on -- the facts
here are distinguishable from the perfunctory facts
that the Fifth Circuit found in Tirado-Tirado.
In that case, there had been a deposition taken.
But the Government failed to make any concrete
arrangements with the witness prior to his
deportation for his return back to testify. They
delayed an attempt to contact him until shortly
before the trial.
Before he was removed, they issued no subpoena or
written notice. They orally informed him that his
testimony might be required and gave the witness

111a
oral notice of a prospect that he would be required to
testify at trial.
They made concrete arrangements for his
attendance at trial more than five months after the
deposition was taken, more than two months after
the Court set the trial date and eight days before
trial.
And while the Government began to make renewed
efforts here at the start of trial with the issuing of
the subpoena, this was only after the agent had been
informed by ERO that they didn’t have the resources
or manpower to do anything after they went to the
uncle’s house.
Therefore, based upon the agent’s testimony and
the evidence in the record, I find that the
Government made good-faith and reasonable efforts
to locate the witness once she had been released.
Additionally, neither the US Marshals nor the FDC
contacted the agent regarding the release. He then
followed up either on February 7th or February 8th
and gave the number that he had of the uncle.
He then spoke to the uncle on February 7th. The
uncle gave his address. Within two weeks, ERO went
to the uncle’s house, and it was after that that a
supervisor told him that they didn’t have the
resources or manpower to do anything else.
Therefore, I find that the video deposition of
Vanessa Armstrong Vixama has met the
requirements, as the witness is unavailable, and the
confrontation clause is satisfied based upon the

112a
unavailability of the witness and the presence of the
Defendants and their counsel at trial.
Additionally, this situation is identical to the
situation of the other witness who was unavailable,
Mr. Francois, whose deposition was played for the
jury.
And I find it was the intent of the parties that
Vixama’s deposition would also be played by the
parties but for the fact that she may have been
wrongly released early by the marshals and has now
absconded. The video deposition without any issue
would have gone forward.
So we’re in recess until under 9:30 tomorrow
morning.
MR. ECARIUS: Your Honor, I’d like to make an
objection.
THE COURT:

Sure.

MR. ECARIUS: Your Honor -THE COURT:

Are you presenting a case?

MR. ECARIUS: No. I’m making an objection to
your finding.
THE COURT:

Okay.

MR. ECARIUS: Your Honor, we object to the
Court’s finding.
I do not believe that a reasonable effort is an
excuse that the US Government does not have the
resources to follow up on an investigation of a
witness who -- a material witness in a federal case.

113a
I understand that it’s inconvenient that she’s
missing and that they had looked for her, but it’s not
reasonable for a federal agent to accept the excuse
that a federal agency that has a multi-billion-dollar
budget does not have the resources to follow up on an
investigation of a witness.
This witness is not like Mr. Francois, who is
unavailable and has been sent back to Haiti. This
witness was mistakenly released by the US
Government and, as she was, they could have issued
a warrant for her arrest because she’s illegally in the
United States.
So the Department of Immigration and Customs
Enforcement [sic] is also part of this. They have a
right to arrest her and to pursue her because she’s
illegally in the United States and she was illegally -she was mistakenly paroled in the United States.
This is not someone who they cannot do anything
with. She could be picked up by Immigration based
on that.
THE COURT:

It’s noted for the record.

We’re in recess until tomorrow morning, 9:30.
Are you presenting a case, Mr. Levin?
MR. LEVIN:
Yes. I’m going to be calling
Special Agent Nowicki.
THE COURT:
case?

Mr. Ecarius, are you presenting a

MR. ECARIUS: I don’t know yet.
THE COURT:

Okay.

114a
MR. LEVIN:
Your Honor, briefly, can I just
add some additional comments with regard to the
Court’s ruling?
I just want to say very briefly that the Court said
that we agreed to the process with regard to the
taking of the deposition.
We agreed to it because it’s been the course in this
district for those types of matters to be handled that
way. I mean, we could have required the
Government to file a Rule 15 motion to take
depositions, which routinely would have been
granted by the magistrate or the district judge, and
then we would be taking these depositions.
But, obviously, as defense counsel, we would much
prefer to be able to confront our clients’ accusers in
open court in front of a jury. I just wanted to put that
on the record.
Thank you, your Honor.

115a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
_________
Case No. 16-20908-CRIMINAL-LENARD
_________
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RICHARD DELANCY and RENADO SMITH,
Defendants.
_________
Miami, Florida
April 20, 2017
9:39 a.m. to 2:00 p.m.
_________
JURY TRIAL
BEFORE THE HONORABLE JOAN A. LENARD,
UNITED STATES DISTRICT JUDGE

APPEARANCES:
FOR THE GOVERNMENT:
EMILY ROSE, ESQ.
KURT LUNKENHEIMER, ESQ.
ASSISTANT UNITED STATES ATTORNEYS
99 Northeast Fourth Street
Miami, Florida 33132

116a
FOR THE DEFENDANT DELANCY:
DANIEL ECARIUS, ESQ.
ASSISTANT FEDERAL PUBLIC DEFENDER
150 West Flagler Street
Miami, Florida 33130
FOR THE DEFENDANT SMITH:
ALBERT Z. LEVIN, ESQ.
ALBERT Z. LEVIN, P.A.
40 Northwest Third Street
Miami, Florida 33128
_________
PROCEEDINGS
***
[Testimony of HIS Special Agent Craig Nowicki,
pp. 41:3-90:20]
***
THE COURT:
So let’s proceed with the
Government’s presentation as to the availability of
Vanessa Armstrong Vixama as a witness.
MR. LUNKENHEIMER:

Yes, your Honor.

The Government would call HIS Special Agent
Craig Nowicki to the stand.
THE COURT:

You’re still under oath, sir.

THE WITNESS: Yes, your Honor.

117a
DIRECT EXAMINATION
BY MR. LUNKENHEIMER:
Q. Special Agent Nowicki, are you familiar with a
female by the name of Vanessa Armstrong Vixama?
A.

Yes, I am.

Q.

And how are you familiar with her?

A. She’s a material witness in this ongoing
investigation.
Q.

And what do you mean by “material witness”?

A. We found her to be a beneficial witness to our
case against the Defendants in this trial.
Q. And when did you first have contact with
Vanessa Armstrong Vixama?
A. In December of last year. I think December
20th.
Q. And where did that occur?
A.

Broward Transitional Center.

Q. And did you ever effectuate a material witness
arrest warrant on her?
A.

Yes.

Q.

And approximately when did that occur?

A.

January 12th of this year, I believe.

Q.

And did you do anything -- sorry.

Where was that effected?

118a
A. Here in Miami. Well, she was taken from
Broward Transitional Center to FDC here in Miami.
Q.

And did you do that?

A.

Yes.

Q. And prior to you taking her from Broward
Transitional Center to the FDC here in Miami, did
you take any action as it related to Ms. Vixama?
A. I met with her for her to review a photo
lineup.
Q. Well, I guess, prior to you picking her up at
the Broward Transitional Center on January 12th,
2017, did you talk to any other authorities
concerning you picking her up that day?
A. Yes. I spoke with the ERO officers at Broward
Transitional Center to make them aware that we’d
be getting a warrant or that we had a warrant and
that we would need to pick her up and transport her.
Q.

When you say ERO, what does that mean?

A. Enforcement Removal Operations. They are
the other side of ICE. They deal with administrative
immigration matters for the most part.
Q.

And do they deport people?

A.

They do.

Q. Do you know if an immigration detainer was
filed against Ms. Vixama?
A.

Yes.

Q.

And have you seen that immigration detainer?

119a
A.

I have.

Q.

Did you play any role in filling it out?

A.

I did not.

Q. I’m showing you what’s been marked for
identification purposes as Government’s Exhibit A.
MR. LUNKENHEIMER: Your Honor, I have
another copy on that speaker there.
THE COURT:

Okay.

MR. LUNKENHEIMER:
witness screen?
THE COURT:

Can

I

have

the

Yes.

MR. LUNKENHEIMER:
Does the defense
have any objection to A, B and C coming in?
MR. ECARIUS: No objection.
MR. LEVIN:
documentation.

No

objection

to

any

MR. LUNKENHEIMER:
Your Honor, at this
time we would enter into evidence for this hearing’s
purposes what has been marked for identification as
Government’s Exhibit A, B and C.
THE COURT:
They will be admitted for
purposes of this hearing as Government’s Exhibits A,
B and C.
(Whereupon, Government’s Exhibits A, B and C
were entered into evidence.)

120a
BY MR. LUNKENHEIMER:
Q. I’m showing you, Special Agent Nowicki,
Government’s Exhibit A.
What is that?
A. That’s the immigration detainer that was
composed and lodged by -- I lodged it when we took
her to FDC, but it was created by ERO Officer
Veronica Suriel.
Q.

What is the date of this detainer?

A.

December 22nd of last year, 2016.

Q.

That’s a date in the upper hand-right corner.

A.

Okay. Excuse me.

The date was January 9th of this year. I was
looking at another date on the detainer.
Q. And in this portion you mentioned the name
Veronica Suriel.
A.

Yes.

Q.

Do you know who that is?

A.

I do not.

Q.

Do you know what her title is?

A. I don’t. I can make an assumption that she’s
an ERO officer or employee, but I don’t even know
what her title is, Deportation officer.
Q And this section of the document that starts
with, “It is requested that you . . .” and then ends
with a signature line before the words “. . . receipt

121a
acknowledged,” do you know what that portion of
this immigration detainer is for?
A. It’s requesting that wherever Ms. Vixama was
being housed prior to her departure, that -- excuse
me -- her release, that ERO was contacted so that
they can respond to transport her from her current
location back to an immigration facility for removal
proceedings.
Q. And in the case of Ms. Vixama where you
arrested her pursuant to a material witness arrest
warrant, would that have been for if FDC was going
to release her?
A.

Yes.

Q. Now, you were at Ms. Vixama’s videotaped
deposition. Correct?
A.

Yes, I was.

Q. And after that deposition took place, what did
you do with her?
A. I watched her get taken back into custody by
the marshals.
Q.

That was in this building that we’re in now?

A.

Yes.

Q. And, after that, that you handed her to the
marshals, have you ever seen Ms. Vixama again?
A.

No.

Q. When was the next time that you heard about
Ms. Vixama?

122a
A. On February 7th, I was contacted by ERO and
they told me that I needed to contact the marshals
because Ms. Vixama was ready for pickup.
And so I contacted the marshals that same day.
And I was advised that they had released her
because ERO, who was contacted by the marshals,
whose information was on that detainer, never
picked up the phone and they’re required to release
these individuals within 48 hours.
Q. And did you determine what date Ms. Vixama
had been released by the marshals?
A. She was released the day before I was notified,
February 6th.
Q. And had the marshals called you concerning
her potential release?
A.

No.

Q. So no one from the Marshals Service called
you saying that she was going to be released in 48
hours?
A.

That’s correct.

Q. Did anyone from the Federal Bureau of
Prisons or FDC call you saying such?
A.

No.

Q. After you learned this information, what did
you do?
A. At that point, I reached out to an individual at
ERO who I’ve worked with in the past and provided
him with an address and a phone number of Ms.
Vixama’s uncle, who resided in Coral Springs.

123a
Q. How did you get the phone number for Ms.
Vixama’s uncle?
A. She provided it to me when she was here one
time prior to her deposition.
Q.

Would that have been in January of 2017?

A.

Yes.

Q.

Prior to her release?

A.

Right.

Q. And how did you obtain the address for that
purported uncle?
A. When I realized that the material witness had
been released, I contacted the phone number that
had been given to me. I spoke with the uncle. He was
at work.
I contacted him later that night and told him I
needed him to give me his address because it was our
understanding that Ms. Vixama could likely be
residing at his home.
Q.

Did he give you that address?

A.

He did. Yes.

Q. And what did you do once you had that phone
number and address again?
A.

I passed it to the ERO office.

Q.

For what purpose?

A. For them to go locate her because, at that
point, she had become their responsibility because
they issued the detainer.

124a
Q. And though released by the US Marshals, was
Ms. Vixama legally in the United States?
A.

No.

Q.

Is she subject to deportation if ever found?

A.

She is.

Q. So after you passed the uncle’s phone number
and address or to ERO, do you know what, if
anything, they did with it?
A. Later that month they did go to the residence.
They were granted permission to enter to look for
Ms. Vixama. They did not find her.
They were advised that -- I think they were told
that they’re -- whoever was living there and spoke
with the officers at the time was told they’re not sure
if she’s residing there.
The ERO felt like they were getting the runaround
from a family member living at the residence, but
they did not find her there.
Q.

Was that on February 21st, 2017?

A.

Yes.

Q. And after that date, did you ever speak to
ERO about Ms. Vixama?
A. I did. I followed up with them in March to see
if they had any luck in locating her since the last
time they checked.
I was told by a supervisor there that they did not
have the manpower to go look for her again.

125a
Q. Now, on -- taking your attention to April of
2017, are you aware of communications with Ms.
Vixama’s material witness defense counsel?
A.

Yes.

Q. And can you summarize around April 12th
any communications with that counsel.
A. He was contacted to see if he knew where she
was, and he provided a name and a phone number of
somebody believed to be Ms. Vixama’s boyfriend, who
resides in Delaware.
THE COURT:

One moment, please.

I have a question. When was the video deposition?
MR. LEVIN:
THE COURT:
deposition?

January 27, 2017.
And you agree that was the video

MR. LUNKENHEIMER:
THE COURT:
deposition?

Yes, your Honor.

So you were there at her video

THE WITNESS: Yes, your Honor.
THE COURT:
And then she went to the custody
of the United States Marshals?
THE WITNESS: Yes, your Honor.
THE COURT:

And where did they take her?

THE WITNESS: They took her to FDC.
THE COURT:

So they took her to FDC.

126a
And then what happened on February 7th? You
contacted ERO?
THE WITNESS: Yes, your Honor. After being
advised that she was released and not picked up by
ERO –
THE COURT:

No. No.

So on the 27th, the marshal takes her into custody
and takes her to the FDC.
THE WITNESS: Yes, your Honor.
THE COURT:
7th?

What happens then on February

THE WITNESS: On February 7th, I am advised by
ERO that the marshals are trying to contact me to
pick her up. So not having created the detainer, I
agreed to contact the marshals anyway to see if I
could provide assistance.
When I did, I was –
THE COURT:
ERO calls you and says that the
marshals are trying to contact you?
THE WITNESS: Yes, ma’am.
Excuse me. I’m not sure if I was specifically told
they were trying to contact me. What I was told by
ERO is that -- ERO told me, “The marshals contacted
us. Your material witness is ready for release.”
So I contacted the marshals to make arrangements
with them, and that’s when I was advised that she’d
been released from their custody.
THE COURT:

So ERO called you –

127a
THE WITNESS: Yes, your Honor.
THE COURT:

-- and told you the –

THE WITNESS: They emailed me and I called
them back, to be specific.
THE COURT:
them back.

They emailed you, and you called

And they told you what?
THE WITNESS: They told me that the US
Marshals at some point had contacted them and that
Ms. Vixama needed to be picked up.
But I think ERO finally realized that the marshals
had attempted to communicate with them after the
48-hour deadline had passed.
MR. ECARIUS: Who is ERO?
THE WITNESS: Enforcement
Removal
Operations. They’re the deportation officers.
THE COURT:
She wasn’t in the custody of the
marshals. She was in the custody of the FDC.
THE WITNESS: I called the Marshals Service,
your Honor. They were the ones that told me that
she had already been released, to the best of my
recollection.
MR. LUNKENHEIMER:
Your Honor, I’ve run
into this in a different situation. When a prisoner is
to be released from FDC or BOP custody and there’s
a detainer against them, they temporarily go into the
marshals’ custody for that detainer to be effected.

128a
I only know about it from a different case where -like a front-line airport case where someone comes in
and there’s a change of plea and sentencing the same
day.
I had spoken to BOP about this issue. So she’s at
FDC in BOP custody. But once the order from a
judge -- you know, that judgments handed down or,
in this case, the material witness complaint is
dismissed, she goes into the marshals’ custody or -who will hold her for 48 hours for the detainer to be
effected or for someone to pick her up.
That 48 hours is pursuant to 8, CFR, 287.7.
THE COURT:
And when
witness order dismissed?
MS. ROSE:

the

material

The 3rd of February, 2017.

MR. LUNKENHEIMER:
transmitted over to BOP.
THE COURT:

was

That

has

to

be

Go ahead.

BY MR. LUNKENHEIMER:
Q. Just to go back, on February 21st, ERO went
to the uncle’s house?
A.

Correct.

Q.

And did not find Ms. Vixama?

A.

That’s right.

Q. And you said they told you that it appears
they were getting the run-around?
A.

Yes.

129a
Q.

And later, I think you said sometime in March

A.

They attempted -- excuse me.

--

Sometime in March I contacted them again to see if
they had been looking for her or had any luck finding
her. I was told by a supervisor over there that they
did not have the manpower to do that.
Q. You
are
aware
in
April
there’s
communications around April 12th with her material
witness
defense
counsel
concerning
her
whereabouts?
A.

Yes.

Q. And you stated something, that he provided
certain contact information?
A. Yes. He provided a name and a phone number
for somebody who was believed to be Ms. Vixama’s
boyfriend, residing in Delaware. Q. And did you
attempt to contact that person via that phone
number?
A.

Yes, I did.

Q.

On what date was that?

A.

April 15th.

Q. And how did you try and contact that -- the
person at that phone number?
A.

Telephone call and text message.

Q.

The telephone call: What happened?

130a
A. It rang a couple of times and then it went to
an unset-up voicemail box. So I was not able to leave
a message.
Q.

And you said text message as well?

A.

Correct.

Q. And what did you send -- what text message
did you send?
A. I identified myself, said I was with Homeland
Security and said I needed to receive a call or a
message from Ms. Vixama because she’s needed in
Miami.
Q. Did you receive a response to that text
message on April 15th?
A.

No.

Q. And did you -- after April 15th, did you try and
call that telephone number again?
A.

I did.

Q.

When was that?

A.

Either the 18th or the 19th of April.

Q.

Would it have been April 18th, Tuesday?

A.

Yes.

Q.

At night or sometime around 5:00 or 6:00?

A.

Correct.

Q. And what happened with the phone call then
on April 18th?

131a
A. Same results. The phone call went to a
mailbox that was not set up, and I did not receive a
response to the text message.
Q.

And now I want to backtrack for a second.

You are aware that a trial subpoena was issued for
Ms. Vixama?
A.

Yes.

Q. I’m showing you Government’s Exhibit B.
Is that that subpoena?
A.

It is.

Q. And the date of that subpoena was -- can you
read it for the record.
A.

April 19th, 2017.

Q.

This part here?

A.

Oh. Sorry.

April 13th of 2017.
Q.

And to appear on what date?

A.

April 19th of 2017.

Q. And as far as you know, was this sent to her
defense counsel?
A.

Yes.

Q.

And did he acknowledge receipt of it?

A.

He did.

Q. And did he say he would pass it along to her or
her boyfriend?

132a
A.

He did.

Q. Now, are you aware that a bench warrant was
issued for the arrest of Ms. Vixama?
A.

Yes, I am.

Q.

Issued by this Court?

A.

Yes.

Q. I’m showing you Government’s Exhibit C. Is
this that bench warrant?
A.

Yes, it is.

Q.

And what is the date of the bench warrant?

A.

April 19th, 2017.

Q. And after this bench warrant was issued, did
you receive a copy of it?
A.

I did.

Q.

Where did you obtain that copy from?

A. From the third floor over in the Tower
Building, US Marshals Service.
Q. After you received a copy of this, what did you
do with it?
A. I forwarded it to my office in Homestead for it to
be entered into NCIC, National Crime Information
Center, so that, if Ms. Vixama’s encountered by law
enforcement and she’s run by law enforcement, that
she will be taken into custody.
And then I also provided a copy to the same ERO
official that I had been in contact with, explaining

133a
the situation to him. And along with the warrant, I
provided him with the recently obtained phone
number and name of the boyfriend in Delaware.
Q. So just to go back, you sent this warrant -- the
bench warrant that was entered on April 19th to
NCIC?
A. Not personally. But it was entered into NCIC
by another agent. Yes.
Q. And that’s -- you said that’s so, if law
enforcement encounters her and runs her, they will
arrest her?
A. Yes. If they encounter her and run her name
and date of birth, she’ll be taken into custody
because they will have access to the information and
the knowledge that she was wanted by us in the
Southern District of Florida.
Q. And NCIC is a nationwide database for law
enforcement?
A.

Correct.

Q. When you say “run her,” you mean a law
enforcement officer would have to enter her name
and date of birth into some type of system to see if
there’s a criminal background check or something
like that?
A.

Yes.

Q. That’s a process that would be done if someone
was pulled over for speeding or was -- you know, had
some -- was arrested for something else?
A.

Correct.

134a
Q. If you know, when that bench warrant was
entered into NCIC, did you specify whether there
was a partial extradition, limited extradition or a full
extradition?
A.

Full.

Q.

What does that mean?

A. It means that, regardless, she needs to be
brought back to the Southern District of Florida.
Q.

Regardless of what?

A. Whatever circumstances may occur up where
she’s encountered.
Q.

And was it the NCIC -- I’m sorry. Strike that.

Going back to the ICE ERO, when you sent him the
bench warrant -- him or her? -A.

Him.

Q.

-- did you email it?

A.

I did.

Q. And you said you provided the boyfriend’s
name and phone number?
A. I did, as well as reiterating the address they
had already been to in the email, just to make sure
that they had it.
Q.

And did both -- did you receive –

THE COURT:

Wait a minute.

The address they had already been to? They gave
him the address of the boyfriend?

135a
THE WITNESS: No, your Honor. I gave them the
address of the uncle.
THE COURT:

Of the uncle.

BY MR. LUNKENHEIMER:
Q. To be clear, you provided the ERO with the
name of the boyfriend, his phone number?
A.

Correct.

Q.

The name of the uncle?

A.

No.

Q.

The address of the uncle?

A.

Yes.

Q.

Did you provide the number for the uncle?

A. No. I did previously, but not in this particular
email.
Q. Are you aware -- would you be notified if Ms.
Vixama had been arrested since you filed that NCIC
-- bench warrant with NCIC?
A.

Yes.

Q. And did you receive confirmation that it was
received by NCIC?
A.

I did.

Q. And would ERO contact you if she had been
arrested by ICE ERO?
A.

Yes.

136a
Q. Are you aware if that bench warrant was sent
to Ms. Vixama’s defense counsel?
A.
Q.
it?
A.

It was.
And do you know if he acknowledged receiving
He did.

Q. Do you know if he’s contacted the boyfriend as
a result?
A.

Made attempt with no response.

Q. Again, is Ms. Vixama facing deportation if
she’s found by any law enforcement officers?
A.

Yes, she is.

Q. That’s in addition to her arrest on the bench
warrant, which is Government’s Exhibit C?
A.

That’s correct.

MR. LUNKENHEIMER:
moment, your Honor?
THE COURT:

Can

I

have

one

Yes.

When you first contacted the attorney and he gave
you the name -- he provided the name and phone
number of the boyfriend in Delaware, where did he
get that from?
THE WITNESS: It’s my understanding that he got
it from Ms. Vixama herself.
MR. LUNKENHEIMER:
Your Honor, there’s
Page 4 of Government’s Exhibit 1, which was
attached to our filing, Docket Entry 61-1. It is an

137a
email from Mr. Raben on Thursday, April 13th. She
is –
THE COURT:
please.

Can you put it on the ELMO,

MR. LUNKENHEIMER:
THE COURT:
evidence?

Oh, sorry.

Are you introducing that into

MR. LUNKENHEIMER:
Yes, your Honor. I’ll
introduce Government’s Exhibit D, which is a
composite exhibit of all -- of various communications
with Ms. Vixama’s defense counsel, Mr. Raben.
THE COURT:
It’ll
be
introduced
Government’s Exhibit D for this hearing.

as

(Whereupon, Government’s Exhibit D was entered
into evidence.)
MR. LUNKENHEIMER:
objection?
MR. LEVIN:

Is

there

any

No.

MR. ECARIUS: No objection.
MR. LUNKENHEIMER:
So, your Honor, the
first one -- the first page of Government’s Exhibit D
is an email from Ms. Rose to Mr. Raben asking if he
has a contact number for her and notifying that
we’re trying to find her to testify at trial.
The next page is an email from Mr. Raben to Ms.
Rose: “I sent an email to family member. I never
heard from client after release. Will keep you
advised.”

138a
Page 3 of Government’s Exhibit D, an email from
Mr. Raben to Ms. Rose: “She is in Delaware. She
doesn’t have a phone. I gave your contact info to her
boyfriend.”
Page 4 –
THE COURT:
that?

One moment. Can you go back to

MR. LUNKENHEIMER:
THE COURT:

Yes, your Honor.

Go ahead.

MR. LUNKENHEIMER:
Page 4 is the email
of Thursday, April 13th, from Ms. Rose to Mr. Raben,
attaching the trial subpoena.
Page 5 is an email from Mr. Raben to Ms. Rose
saying: “I am forwarding the info to boyfriend.”
And that is the trial subpoena.
THE COURT:

What was the date of Page 4?

MR. LUNKENHEIMER:
13th at 1:27 p.m.

Page 4 was April

Page 5 is April 13th at 1:35 p.m.
Page 7 of Government’s Exhibit D, an email from
Mr. Raben to Ms. Rose on Saturday, April 15th, at
2:37 p.m.: “Providing contact information via
attachment, stating you can call her now at this
number.”
THE COURT:

What was the attachment?

139a
MR. LUNKENHEIMER:
Special
Agent
Nowicki, do you know what the attachment was to
this email?
THE WITNESS: The attachment was the name
and the phone number of the boyfriend in Delaware.
BY MR. LUNKENHEIMER:
Q.

Is that the name there, Florestal Fuegens?

A.

Yes.

Q. In this attachment, there was that name and
just a phone number?
A. To the best of my understanding, yes, because
I received that name and a phone number on the
same date.
THE COURT: What did you do?
THE WITNESS: I made a phone call to the phone
number, and it went to a voicemail box that had not
been set up.
THE COURT: That was the same number that the
lawyer had given you?
THE WITNESS: Yes, your Honor.
And I followed the phone call up with the text
message. It was never responded to.
MR. LUNKENHEIMER: Your Honor, Page 8 of
Government’s Exhibit D is an email from Mr. Raben
to Ms. Rose: “I just emailed you her number. I
believe she will cooperate,” Saturday, April 15th, at
2:37 p.m.

140a
Page 10, your Honor, of Government’s Exhibit D,
an email from Mr. Raben and Ms. Rose: “I have her
case agent number as well.”
And I believe that might be a misspelling. It might
be: “I gave her case agent number as well.”
THE COURT:
email, please.

Can you go back to the prior

MR. LUNKENHEIMER:
This one, Page 8, your Honor?

Yes,

your

Honor.

THE COURT:
All these emails are about the
same time. Right?
MR. LUNKENHEIMER:
Yes, your Honor.
Yes, your Honor. That email, Page 8, was Saturday,
April 15th, at 2:37 and 4 seconds p.m.
The prior one with the contact card of Ms. Rose was
12:37 and 19 seconds.
Page 10 -- and this is the one we just went over -- I
believe Mr. Raben is saying he gave her the case
agent number as well.
BY MR. LUNKENHEIMER:
Q. Special Agent Nowicki, have you been
contacted via your cellular telephone number by
anyone on behalf of Ms. Vixama in April of 2017?
A.

No.

Q.

Prior to this trial?

A.

No.

Q.

Once this trial began on Monday?

141a
A.

At no point.

Q. And anytime since you filed the bench warrant
with NCIC or ERO?
A.

No.

MR. LUNKENHEIMER:
Your Honor, the
next email is from Wednesday, April 19th, 3:39 p.m.,
where Ms. Rose sends to Mr. Raben -- notifies him -or attaches a bench warrant -- the bench warrant,
Government’s Exhibit C.
THE COURT:

What page is this?

MR. LUNKENHEIMER:
your Honor.

This will be Page 13,

Page 14, your Honor, of Government’s Exhibit D is
a response from Ms. Raben five minutes later on
Wednesday, April 19th, at 3:34, where he
acknowledges receipt and he said: “Will do.”
I believe Page 15, ten minutes later, on
Wednesday, April 19th, Mr. Raben informs Ms. Rose
that he has left a message with BF, which
purportedly could be “boyfriend.”
Page 16, an email Thursday, April 20th, at 6:05
a.m. from Mr. Raben to Ms. Rose: “I spoke to
boyfriend this morning and explained consequences
of her failing to contact agent.”
BY MR. LUNKENHEIMER:
Q. Agent, since 6:05 a.m. this morning on April
20th, have you been contacted by anyone on behalf of
Ms. Vixama?

142a
A. I can go check my phone. But up until the time
that I came to give testimony, at this point, I have
not.
MR. LUNKENHEIMER:
approach with his telephone?
THE COURT:

Your Honor, can I

Yes.

BY MR. LUNKENHEIMER:
Q.

(Tenders item to the witness.)

A.

No. No contact.

MR. LUNKENHEIMER:
Lastly, your Honor -I think I’m at Page 16 of Government’s Exhibit D.
It’s just an email from Special Agent Nowicki to an
Edwin Lopez and a Garrett Ripa, R-i-p-a.
BY MR. LUNKENHEIMER:
Q. Special Agent Nowicki, are you familiar with
this email?
A.

Yes.

Q.

And what is this email?

A. This email is -- I sent -- Edwin is my
supervisor. I was asking him to assist in getting the
warrant into NCIC.
He responded that he would have another agent in
my group accomplish that.
The bottom paragraph is to Garrett Ripa. He’s the
supervisor with ERO who I had been in contact with
regarding the attempted location of Ms. Vixama.

143a
Q. And at the bottom of this page, there’s a name,
Florestal Fuegens.
A. Yes. That’s the purported boyfriend’s name
and the phone number that was provided for him.
Q And there’s a part that says “Last Known
Address.” What address is that?
A. That’s the address in Coral Springs that was
given to me Ms. Vixama’s uncle. It’s the same
address that ERO attempted to locate her earlier in
the year.
Q. And that email was sent yesterday, April 19th,
at 3:35 p.m.?
A.

Correct.

MR. LUNKENHEIMER:
Your
Honor,
we
have no further questions of the agent. And with the
entrance -- acceptance of Government’s Exhibits A,
B, C and D, we have no further evidence to provide
on the unavailability of Ms. Vixama.
THE COURT:

Cross-examination.

MR. LEVIN:
Your Honor, before I start my
cross, I have a matter in mag court at 1:30. I just
assumed we would be finished, you know, like on a
regular day.
THE COURT:
Hopefully we’ll be done. I’ll have
Patricia call down there.
MR. LEVIN:

Okay. Thank you, your Honor.

THE COURT:

I hope we’ll be done.

144a
MR. LEVIN:
quickly.

I’m going to do my best to move

THE COURT:
Okay?

Let me say this. We will be done.

MR. LEVIN:

Okay.

CROSS-EXAMINATION
BY MR. LEVIN:
Q.

Special Agent Nowicki, good afternoon.

A.

Good afternoon.

Q. So on February 3rd, which was a Friday, the
material witness order was dismissed by Judge
Goodman. Correct?
A.

Yes.

Q. At that time, Ms. Vixama was at FDC Miami.
Correct?
A.

Correct.

Q. And then, apparently, on Monday, she gets
released by the marshals. Right?
A.

Yes.

Q. But, nonetheless, she was housed -- just so it’s
clear, she was actually inside the Federal Detention
Center under the umbrella, if you will, of the Bureau
of Prisons. Correct?
A.

Yes.

145a
Q. The marshals kind of made this determination
to let her out because no one from ERO had come to
pick her up. Right?
A.

That’s correct.

Q. And you said that, on February 7th, you found
out that she had been released. Right?
A.

That’s correct.

Q. And you said that you reached out to ERO to a
person that you’ve worked with?
A. That’s not who I was referring to when I was
speaking about it before. But the individual that I
did contact from ERO, I have also worked with him
previously as well.
Q. Okay. And you told him about what had
occurred with Ms. Vixama?
A. I was advised in an email -- to the best of my
recollection, I received an email from an ERO officer
named Michael Scrocca, who I’ve worked with in the
past.
The email indicated -- I don’t remember the precise
verbiage, but Vixama was ready for pickup or
something about Ms. Vixama and the need to
transport her from Downtown Miami back to BTC.
So I made a phone call to Officer Scrocca and, at
that point, we discussed the matter. I then contacted
the marshals here in Miami to get further
clarification. And then that’s when I was notified by
them that she had already been released.

146a
BY MR. LEVIN:
Q.

That was on February 7th. Right?

A.

Yes.

Q. And so then you had had Vixama’s uncle’s
phone number and address in Coral Springs because
Ms. Vixama herself had given you that. Right?
A. I had the uncle’s phone number from prior to
her deposition. I did not receive the uncle’s address
until later on February 7th, the same date that I was
emailing with Officer Scrocca after I contacted the
uncle requesting his address, and he did provide it to
me in a text message.
Q.

Okay. Did you ever go to the uncle’s residence?

A.

I did not.

Q. On February -- January 26th, when the
material witness deposition was taken, you were
present. Correct?
A.

Yes.

Q. And during that deposition, Ms. Vixama
provided a lot of information about herself.
Do you recall that?
A. Not -- no. I do not recall specific information
she provided about herself from that date.
Q. Do you remember her telling you that her -where she live in Haiti?
A. I remember her saying that she lived in Haiti,
but I don’t recall where.

147a
Q.
not?

You had a transcript of the deposition; did you

A.

The deposition of her?

Q.

Yes.

A. I don’t recall looking -- viewing a transcript of
the deposition. No.
Q. And do you remember her telling you the
name of the school -- the name of the school that she
went to in Haiti? Did you glean that from her in your
interview of her?
A.

No.

Q.

What about the names of her parents?

A.

No. Not that I recall.

Q.

What about her address in Haiti?

A.

I don’t recall.

Q. So you had no contact information for, for
example, her parents in Haiti.
Is that what you’re saying?
A. No contact information. Just that she was
from Haiti. She was a Haitian national.
Q.

Okay. Now --

A. I’m sorry. The only information she provided
for contact information in the United States was her
uncle.

148a
Q. Okay. Now, the information you passed on to
the ERO was the contact -- the address for the uncle
in Coral Springs. Right?
A.

That’s correct.

Q. And you gave them that information on
February 7th?
A. I think it was February 8th, but I’m not sure.
It could have been February 7th.
Q. And then you said later that month they went
to that residence.
Do you recall that?
A.

Yes.

Q. And do you know when they went to that
residence?
A.

The 21st of February.

Q. So they waited approximately two weeks
before they went to the residence?
A.

Approximately two weeks.

Q. And you never went over to that residence in
that interim period of time between February 7th
and February the 21st. Correct?
A.

No, sir.

Q. And you said that they went to the residence
and they thought that they were getting a runaround by a family member?
A. Yes. From my recollection of my conversation
with the officer that -- one of the officers that went to

149a
that address, it seemed as though they were hesitant
in divulging whether or not she was really residing
at that residence or not.
Q.

Did they ever meet with the uncle?

A. I think they spoke with a female that might
have been the wife of the uncle. I don’t think they
ever met with the uncle. Q. Did you ever ascertain
that -- you had the name of the uncle, I assume.
A.

No.

Q.

You did not have the uncle’s name?

A.

I did not have the uncle’s name.

Q.

Just had an address and phone number?

A. Address, phone number and the type of
relative, which was uncle.
Q. And there’s certainly databases that you have
that could have provided you with the name of the
uncle just by running the address and the phone
number. Correct?
A.

More than likely, yes.

Q.

And that was never done?

A.

No.

Q. So no one ever reached out to the uncle to try
to ascertain the whereabouts of this woman?
A.

I did.

Q.

You spoke to him on the phone?

150a
A. I spoke to him on the phone. Yeah. When I
called him for his address, I did say that we were
trying to get ahold of Ms. Vixama and that’s why I
needed his address.
So he did have my phone number. He called me
back. He was aware that law enforcement was
looking for Ms. Vixama.
Q. That was in your first call to him on February
the 7th?
A.

Correct.

Q. Now, as the case agent, you basically became
aware that Her Honor set this matter for trial back
on February 10th, 2017. Correct?
A. Yes. I won’t dispute that, yes, to the best of my
recollection.
Q. She set the matter for trial for the trial period
commencing this week, April 17th. Correct?
A.

Right.

Q. Now, do you know why a trial subpoena was
not issued back on February 10th or shortly
thereafter to Mr. Raben, the counsel for this witness?
A. Because we had the video deposition of her
testimony already.
Q. Okay. So it was presumed that you were just -it was okay to let her, you know, be at liberty, if you
will, because you didn’t really need her to come in for
this trial because you had a videotaped deposition.
Right?

151a
A. We didn’t want to let her be at liberty. We
were trying to find her. But being unable to locate
her, we had no choice but to rely on the video
deposition.
Q. Okay. Now, Mr. Raben was never contacted
until early April. Correct?
A.

Correct.

Q. No one ever went to Mr. Raben’s office in
February or March to talk about the whereabouts of
his client. Correct?
A. I don’t know if no one did. I never did. And the
communications that we viewed earlier were
between the prosecutor and Mr. Raben.
Q.

Right.

But you never had any contact with Mr. Raben in
February or March. Correct?
A.

I did not.

Q. To your knowledge -- and you don’t know if
anybody else did in February or March?
A.

That’s right.

Q. Now, you said ERO had gone out there on the
21st of February and they thought they were getting
the run-around and then they followed up sometime
in March.
A. They did not follow up. I followed up with
them to see if they had followed up again, and I was
told they didn’t have the manpower to do that.
Q.

So you contacted them sometime in March --

152a
A.

Right. I don’t remember --

Q. -- and then they told you that they had not
gone back to that residence because they had no
manpower to look for her again. Right?
A.
Yes.

That was the basic gist of the conversation.

Q. And when you were told that they had no
manpower to look for her again, did you go to the
Coral Springs residence or otherwise try to reach out
to the uncle to find this lady?
A. I didn’t go to the residence of the uncle. I’m
assigned to the Homestead office. That’s outside of
my AOR. And I don’t recall if I had any additional
contact with the uncle or not.
Q. And, obviously, you work for a large agency
and there are offices that are closer to Coral Springs
than yours.
Did you ever reach out to a colleague in one of
those offices to see if perhaps they could swing by
this residence to at least see what the activity was,
maybe do a brief surveillance to see if she was there?
A. I did not because this is an administrative
immigration matter. And at that point, Ms. Vixama’s
location and custody was the responsibility of ERO.
It’s likely -- I did not reach out. You’re correct. But
it’s likely that I could have been turned down by a
supervisor up there because it’s not a criminal
matter.
Q. Even though she was an essential witness to
this case. Correct?

153a
A.

Yes. But she’d already been video-deposed.

Q. So on April 12th, Mr. Raben provides a name
and phone number of the boyfriend.
Is that about right? Is that what you said?
A. I received the information on April 15th. I’m
not -- I don’t recall exactly when it was received by
the prosecutors.
Q. So there was really no activity of any sort
whatsoever throughout the entire month of March to
try and locate this woman. Correct?
A.

Correct. To the best of my recollection, yes.

Q. There were no attempts again to ascertain the
boyfriend’s phone number from Mr. Raben, who had
this number in his file prior to March. Would you
agree with that?
A. I don’t know when he had it in his file. I just
know that I received it on April 15th.
Q. And nobody, to your knowledge -- well, you
didn’t reach out to Mr. Raben in March?
A.

I did not speak with him. No.

Q. So you got the boyfriend’s number and you
knew that the boyfriend lived in Delaware. Correct?
A. I didn’t know that. Thinking back, I don’t
believe Mr. Raben had the information in his file
because it seemed that he had recently obtained it
and then passed it to the prosecutors as soon as he
got it
Q.

Okay.

154a
A.

-- which would have been this week.

Q. Special Agent Nowicki, let me show you what’s
in evidence as Government’s Exhibit D-1.
You’ll see this is Ms. Rose reaching out to Mr.
Raben on April the 12th, asking if -- this seems to be
the first contact between Ms. Rose and Mr. Raben.
Correct?
A. I have no idea. I’m sure they had contact
before this about the case. But in regards to locating
Ms. Vixama, it is likely the first contact between the
two of them.
Q.

Right. Right.

And then this email, which would be D, Page 3,
advises Ms. Rose that this witness is in Delaware
and that the contact information had been given to
her boyfriend.
Do you see that?
A.

Yes, I do.

Q. Did anybody ever reach out to Mr. Raben to
ask him the name of the boyfriend after receiving
this information, to your knowledge?
A. Not to my knowledge. I don’t know if -- on the
15th, two days after this, I did receive the name of
the boyfriend. But I don’t know -- I don’t recall
exactly how that was obtained. I think -- it was
provided in an email with a text message to the
prosecutor. That’s right.
Q. And then the trial subpoena for the very first
time is issued to Mr. Raben on April 13th?

155a
A.

Yes.

Q. And this would have been approximately two
months after the setting of this trial by Her Honor.
Correct?
A.

Correct.

Q. Now, on Saturday, April 15th, is when you get
the contact information for Florestal, F-l-o-r-e-s-t-a-l,
last name Fuegens, F-u-e-g-e-n-s. Correct?
A.

That’s right.

Q. Then you have -- this is when you get the
phone number.
Right?
A. Yes. It was passed on to me after they received
it in this email.
Q. And it says, “You can call her now at this
number.”
Do you see that?
A.

Yes, I do.

Q. And that was at 2:37 on Saturday, April 15th,
2:37 p.m.
Do you see that?
A.

Yes, sir.

Q.

When did you receive this information? You.

A. Can I look at my text message in my phone?
I’ll be able to give you that.

156a
Q. Sure. It’s okay with me if it’s okay with the
Court.
THE COURT:

Sure.

MR. LUNKENHEIMER:
Honor.

No objection, your

THE WITNESS: I received it ten minutes after -assuming these emails are -- yeah. They’re the same.
Eastern Standard Time. I received it ten minutes
afternoon Ms. Rose received the email from Mr.
Raben. 2:47 p.m.
BY MR. LEVIN:
Q.

Did you call the contact number at that time?

A. I’ll check to give you a specific time, if that’s
all right.
I did -- yeah. Do you want the specific time?
Q.

I don’t need the specific time.

A. Okay. Yeah. It was very shortly after this,
maybe immediately, because I knew it was an
important matter.
Q. Is that when you said that you got a voicemail
that was not set up?
A.

Yes.

Q. Now, on April 19th, there’s an email that
indicates that Mr. Raben had left a message with the
boyfriend.
Do you see that?
A.

Yes. That was yesterday. Yes. I see that.

157a
Q. Do you know if that was left on a voicemail or
do you know how that message was communicated?
A.

I do not.

Q.

And you had the gentleman’s name. Correct?

A.

Yes.

Q. Were any attempts made to ascertain an
address for this individual? Did you run his name in
any databases?
A.

Not yet.

Q.

So that hasn’t been done yet?

A.

It has not been done yet.

Q. And the information you have is that Ms.
Vixama is with this individual, Mr. Florestal
Fuegens. Right?
A.

Correct.

Q. And Raben has told you -- Mr. Raben, I should
say -- via email to Ms. Rose and you became aware
that she’s in Delaware and you knew that as early as
April the 12th. Correct?
A.

I knew it April 15th.

Q.

You found out on the 15th?

A.

Yes.

Q.

This email was sent on the 13th.

And you did not know the boyfriend’s name until
the 15th?
A.

Correct.

158a
Q. And since April 15th, there have been no
attempts to ascertain an address in Delaware by
running this gentleman’s name?
A.

Not by me.

Q. And, basically, the reason for that is because
you assumed that she’s already given the videotaped
deposition, you didn’t really need to try to find her?
A.

There are various reasons. That’s one of them.

The other one is there are many issues when it
comes to her immigration status and how long -- if
she’s taken into custody, how long it would take the
process for her to go from an immigration facility in
Delaware to make it to Miami.
She’d been made aware of the consequences of not
showing up for trial. She had been served with a
subpoena. I had attempted to contact the boyfriend
on several occasions.
Q. Now, when she was released on February the
6th into the community -- you said previously that
she is illegal. She’s not -- does not have status in this
country and is not really permitted to be here. Right?
A.

That’s correct.

Q. She was subject to being arrested at that time.
Correct? A. She would have been taken into custody
for removal proceedings by ERO. Yes.
Q. And certainly a warrant could have been
lodged into the system back on February 6th or 7th,
the day she was released. Correct?

159a
A. Perhaps. Yes. A warrant could have been
issued previously.
Q.

Right.

And had a warrant been issued then and put into
the NCIC, it would have alerted anyone in law
enforcement that ran her or came into contact with
her that she was subject to being arrested. Right?
A.

That’s correct.

Q. Yet, no warrant was issued until the request
was made of the Government to Judge Lenard to
issue a bench warrant. I believe it was yesterday.
Correct?
A. To be honest with you, I’m not sure if the
warrant could have been -- a warrant for arrest could
have been issued because she had not not appeared
for court yet.
So a bench warrant could have been issued and she
was not -- had not been indicted for any crimes.
There was a material witness arrest warrant that
had already been issued. So perhaps another
material witness warrant could have been issued.
But other than that, I’m not sure.
THE COURT:
Let me go back to -- you found out
she was released on February 6th.
THE WITNESS
February 7th.

Your Honor, I found out on

THE COURT:
You found out on February 7th
that she had been released on February 6th?
THE WITNESS: Yes, sir.

160a
THE COURT:
When is it that you contacted
ERO and gave them the phone number with the
uncle?
THE WITNESS: That would have been the -either that same day or the next day. I can’t
remember.
THE COURT:
8th?

So it was either the 7th or the

THE WITNESS: Yes. I may be able to do a quick
search of my emails to give you the specific date, but
I’m not sure if it still exists.
THE COURT:
When is it that you got the
address from the uncle?
THE WITNESS: February 7th, that night.
THE COURT:
So when you contacted ERO, you
gave them the phone number and the address of the
uncle?
THE WITNESS: Yes, your Honor.
THE COURT:
further?

Go ahead, Mr. Levin. Anything

MR. LEVIN: If I may have a moment to review
these emails briefly, your Honor. I think I’m finished.
Nothing further, your Honor.
THE COURT:

Mr. Ecarius.

CROSS-EXAMINATION
BY MR. ECARIUS:
Q.

Good afternoon, Agent.

161a
A.

How are you?

Q. Agent, you said that you contacted ERO in
February 2017, right, to look for Ms. Vixama?
A.

Yes.

Q. And they never respond to you after that
about -- as far as status. They didn’t find her at the
address, but then they never responded after that. Is
that correct?
A. Yes. I provided them with the address on either
the 7th or the 8th of February. On the 21st, they
went to go look for her, gained consent to enter the
residence to search for her, did not find her, reported
those facts back to me.
And then I had no additional contact with ERO
after that until recently.
Q. Okay. So you were aware that she was
missing since -- that she had been released into the
community since February 6th, but, at that time, you
thought that, because the Government already had
the deposition, that that would be sufficient for trial.
Is that correct?
A. That was not my basis for not personally
looking for her. She at that point was present in the
country illegally. There was no criminal action
against her. So she was not my responsibility. So
that, combined with knowledge that we do have a
video deposition -- I guess those were some factors.
But I can’t point to one factor why I didn’t
personally go look for her. There are numerous
factors.

162a
Q. But, Agent, she’s a material witness in this
criminal case. Is that correct?
A.

Yes.

Q.

And you’re the case agent on this case. Right?

A.

That’s right.

Q. So aren’t the material witnesses
responsibility, generally, to manage them?

your

A. Not after they -- they’re out of custody of the
marshals or FDC and under a detainer issued by
ERO.
Q. So because she was released, even though you
have a pending trial where she’s a material witness,
your position is that, once she’s released by the FDC
or the marshals, she’s no longer your responsibility?
A. Not necessarily. Because I did make efforts to
coordinate with other agencies to try to locate her. So
if I said she wasn’t my responsibility, I would not
have done it like that.
But when it comes to actually locating her and
taking her back into custody, she is legally not my
responsibility at that point. I can assist other
agencies whose responsibility it is. But she’s no
longer my responsibility legally at that point.
Q. Part of what you do as a case agent is manage
the important witnesses for your case for the
prosecutors. Right? You work as a team, and that’s
part of what you do, is manage these witnesses?
A.

That is part of what I do. I do manage them.

163a
Q. And -- but you didn’t -- did you contact -- once
you knew that she had been released into the
community, did you contact the prosecutor to let
them know that they might have to issue a warrant
or anything like that?
A.

Contact who?

Q.

The prosecutors.

A.

Yes.

Q. Did you discuss at that time that she’s missing
and that it may be required to get a material witness
warrant -- another one -- because she’s missing?
A. Not at that time, because she wasn’t really
considered missing because we had her uncle’s
contact information and an address.
So until we found out that she was potentially with
her boyfriend in Delaware, we thought that perhaps
she was at the address of the uncle whose phone
number she gave us.
So at that point, she wasn’t contracted missing.
Q. Well, you knew from February 21st that she
was not at the address because the agents had
reported to you, as of February 21st, that she was no
longer at that address. Is that correct?
A. They didn’t report that she was no longer
there. They reported that they didn’t find her there
and that the people who were living there that they
spoke to were not forthcoming about whether she
lived there or not.

164a
Q. So at that point, on February 21st, she was
missing as far as -- you did not know where she was
located?
A.

I didn’t know where she was. Correct.

Q.

Right.

And you’re the case agent on this case. Right?
A.

I am.

Q. And you communicated that on February -the results of that investigation on February 21st,
did you communicate that to the prosecutors?
A.

I did.

Q. And you could have gotten -- did you let them
know that you have no idea where she is?
A. I told them that ERO went there, that they did
not find her and that ERO felt that who they
interviewed were not maybe being entirely truthful
about whether she was living there at that time or
not.
Q. And so you alerted the prosecutors, but you
didn’t issue -- you didn’t -- no one tried to issue a
warrant or anything like that to actually -- so she
would be stopped if she’s leaving the country or
anything like that. Right?
A.

Right.

Q. And you said that you did contact -- you did
contact ICE, but you were told they didn’t have the
manpower to try to find her at that time. Right?
A.

That’s correct.

165a
Q. Well, that’s not -- you spoke to -- how long
have you been with -- been an agent?
A. Since -- with HSI, since ‘08, but criminal
investigator since 1998.
Q. And you’re used to dealing with other agencies
that you work with in your law enforcement capacity.
Right?
A.

Yes.

Q. And part of -- sometimes, as part of your job,
you have to push the other agencies to help you in
these cases. Right?
A.

Yeah. Which I did. Yes.

Q. And you were told that they didn’t have the
manpower to look for Ms. Vixama. But did you ask to
speak to a supervisor or try to get someone else to try
to -- to follow up with her?
A.

That was a supervisor that I spoke to.

Q. So after you were told that they were not going
to look for her, did you try alternative means or did
you yourself go -this is March of 2017. This is a
month before -- over a month before the scheduled
trial date.
Did you go -- did you talk to your office or do
anything else to further the investigation after being
told that they didn’t have the manpower to look for a
material witness in a federal trial that was going to
be occurring in about a month?
A. Not to my recollection.

166a
Q. Was that an acceptable answer for you, that
they didn’t have the manpower to look for a material
witness in a federal case?
A. Yes. I’m not in charge of their agency. I was
speaking with a supervisor. He told me they don’t
have the manpower. I wasn’t going to question it.
Q.

You weren’t going to question it?

A.

Right.

Q.

But you’re the case agent on this case. Right?

A.

Yes.

Q. And part of your responsibility is managing –
THE COURT: It’s getting repetitive now, Mr.
Ecarius.
BY MR. ECARIUS:
Q.

So you have a right to question that. Right?

A. Yes. I didn’t see a need to question it. If a
supervisor tells me they don’t have manpower, me
working for another agency is not going to call him
out on that.
If they don’t have the manpower, he doesn’t have
the manpower. I can’t make him increase the amount
of officers that he has to go look for somebody.
Q. But you can find alternative means to pursue
her, to investigate her, within your own agency.
Right?

167a
A. Maybe. Maybe not. Like I said, it was strictly - her status was strictly -- her status as illegal was
strictly Immigration.
So being a criminal investigative agency, not a
deportation office, it’s likely that getting help from
my own agency and offices up there might have been
hard to come by. But I did not contact another HSI
office for assistance.
Q. So you’re saying that you didn’t ask for help,
but you think that it would have been hard to come
by if you had asked for help?
A.

Potentially, yes.

Q. So during March 2017, even though the case
was on for trial and this is a material witness, you
did not do anything else to further the investigation
into finding Ms. Vixama. Right?
A.

I did not look for her during March of 2017.

Q. And the emails and efforts to locate her, why
was that mad after the trial started?
A.

They weren’t my emails. So I don’t know.

Q. Well, you were giving the information to the
prosecutors.
Had you spoken to them back in March about the
fact that she was missing and asked them to make
further efforts?
A. They knew that she was missing as of
February 21st. I reported to them that ERO was
unable to locate her.
MR. ECARIUS: No further questions.

168a
THE COURT:

Redirect.

MR. LUNKENHEIMER:
Honor.

Just

briefly,

your

REDIRECT EXAMINATION
BY MR. LUNKENHEIMER:
Q. Special Agent Nowicki, do you know if Ms.
Vixama has traveled outside the United States, like
made a border crossing?
A. Since her appearance here for our case, no, she
has not.
Q. And this immigration detainer, Government’s
Exhibit A, is it lodged in any sort of database?
A. It is -- when it’s lodged, it’s passed on to
wherever we take her, whether it’s the marshals or
BOP. So they do have a database they enter it into so
that they know when she’s released. They are made
aware to contact ERO to have her picked up and
transferred into immigration custody.
Q. And the uncle’s phone number when it was
provided to you Ms. Vixama -- do you recall that?
A.

I do.

Q. Was that so that you could contact her after
her deposition?
A. No. That was so that she could talk to a
relative in the United States to put her at ease.
Q.

While she was in custody awaiting deposition?

A.

That’s right.

169a
Q. And I believe you said on cross-examination
you’re not aware of any type of arrest warrant that
could have been issued.
A. I was thinking through. I’m not 100 percent
sure.
MR. LUNKENHEIMER:
questions, your Honor.
THE COURT:

No

Thank you, sir.

You may step down.
(Witness excused.)

further

